<html>
<title> - ADVANCING U.S. INTERESTS IN A TROUBLED WORLD: THE FY 2016 FOREIGN AFFAIRS BUDGET</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





   ADVANCING U.S. INTERESTS IN A TROUBLED WORLD: THE FY 2016 FOREIGN 
                             AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 25, 2015

                               __________

                           Serial No. 114-24

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-532 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
















                     COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable John F. Kerry, Secretary of State, U.S. Department 
  of State.......................................................     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable John F. Kerry: Prepared statement..................     9

                                APPENDIX

Hearing notice...................................................    68
Hearing minutes..................................................    69
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    71
The Honorable Brendan F. Boyle, a Representative in Congress from 
  the Commonwealth of Pennsylvania: Prepared statement...........    74
Questions submitted to the Honorable John F. Kerry for the record 
  by:
  The Honorable Edward R. Royce, a Representative in Congress 
    from the State of California, and chairman, Committee on 
    Foreign Affairs..............................................    75
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    79
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida....................................    99
  The Honorable Albio Sires, a Representative in Congress from 
    the State of New Jersey......................................   100
  The Honorable Dana Rohrabacher, a Representative in Congress 
    from the State of California.................................   101
  The Honorable Gerald E. Connolly...............................   102
  The Honorable Steve Chabot, a Representative in Congress from 
    the State of Ohio............................................   104
  The Honorable Brian Higgins, a Representative in Congress from 
    the State of New York........................................   106
  The Honorable Joe Wilson, a Representative in Congress from the 
    State of South Carolina......................................   107
  The Honorable David Cicilline, a Representative in Congress 
    from the State of Rhode Island...............................   108
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................   111
  The Honorable Alan S. Lowenthal, a Representative in Congress 
    from the State of California.................................   117
  The Honorable Matt Salmon, a Representative in Congress from 
    the State of Arizona.........................................   120
  The Honorable Grace Meng, a Representative in Congress from the 
    State of New York............................................   122
  The Honorable Jeff Duncan, a Representative in Congress from 
    the State of South Carolina..................................   124
  The Honorable Brendan F. Boyle.................................   129
  The Honorable Scott Perry, a Representative in Congress from 
    the Commonwealth of Pennsylvania.............................   130
  The Honorable David A. Trott, a Representative in Congress from 
    the State of Michigan........................................   131

 
                 ADVANCING U.S. INTERESTS IN A TROUBLED
                   WORLD: THE FY 2016 FOREIGN AFFAIRS
                                 BUDGET

                              ----------                              


                      WEDNESDAY, FEBRUARY 25, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:06 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. This committee will come to order. 
Committee will come to order, if all members will take their 
seats.
    Today we hear from Secretary of State John Kerry. The 
Secretary is just off yet another overseas trip dealing with 
issues that we will discuss here today.
    And, Mr. Secretary, your dedication is clear to all.
    Secretary Kerry comes to present his Department's budget 
request. Needless to say, given Washington's chronic budget 
deficit, wasteful spending is intolerable. Even good programs 
may be unsupportable at levels we would want. But we must also 
appreciate the many serious challenges we as a Nation, and the 
Department in particular, faces worldwide.
    These challenges seem to grow by the day. Iran and North 
Korea are pursuing nuclear weapons; Russia is gobbling up 
neighboring Ukraine; we see beheadings, crucifixions, and 
immolation by ISIS; cartoonists and Jewish shoppers are 
targeted and killed on Paris streets. Indeed, some days it 
feels as if the world itself is coming off of its axis.
    Regarding Iran, Mr. Secretary, all of us want to see you 
get a meaningful lasting agreement. But the committee, as you 
know, has real concerns about the direction of these talks. I 
am hearing less about dismantlement and more about the 
permanence of Iran's nuclear program.
    That is particularly disturbing when you consider that 
international inspectors report that Iran has still not 
revealed its past bomb work. This should be treated as a 
fundamental test of the Ayatollah's intention to uphold any 
agreement. Iran is failing that test. Also, it is still 
illicitly procuring nuclear technology. Recently Iran was 
caught testing a new generation of supersonic centrifuges. To 
be frank, as this committee reads about us being on the brink 
of a ``historic agreement,'' you have a challenge in terms of 
Congressional buy-in. Meanwhile, Iran and its proxies are 
wreaking havoc throughout the region.
    And in Eastern Europe, Russia's military aggression is 
matched only by the size of its propaganda. Russia is spending 
more than $\1/2\ billion annually to mislead audiences, to sow 
divisions, to push conspiracy theories out over RT television. 
Yet, the agency charged with leading our response, the 
Broadcasting Board of Governors--is, as your predecessor 
testified to us--dysfunctional. Last Congress the House passed 
legislation authored by Ranking Member Eliot Engel and me to 
fix the BBG, the Broadcasting Board of Governors. We hope to 
have the administration's active backing as we again push this 
reform.
    And in the Middle East, ISIS is on the march. The 
administration was tragically slow to react to ISIS's rise, 
missing the chance to devastate them with airstrikes. During 
the first 7 months, 8 months of ISIS moving from Syria into 
Iraq, town by town, taking these cities, air power was not used 
to devastate these columns out on the open road as it should 
have been applied. Today the Kurds are still severely 
outgunned. Our training of the Syrian opposition isn't off the 
ground, and Arab allies complain they don't have the weapons 
needed.
    And while the administration is focused on the fight 
against ISIS in Iraq today, it is still unclear what its plans 
are for Syria tomorrow. As the committee considers the 
President's request for a military authorization against ISIS, 
members need to hear a better articulation of the 
administration's strategy and see a strong commitment from the 
Commander-in-Chief.
    As terrorism from Islamist terrorist groups spread, the 
committee knows that that puts more of our diplomats out there 
at risk. In the past half year, the Department has had to 
evacuate staff from two U.S. Embassies, Libya and Yemen.
    On this note, the committee stands ready to assist the 
Department on Embassy security. We passed a State Department 
Authorization and Embassy Security bill last Congress and look 
forward to working with you to get our next bill signed into 
law. And as the Department works to finalize its second 
Quadrennial Diplomacy and Development Review, know that we are 
ready to assist the Department to be more effective and 
efficient to meet the demands of the 21st century's diplomacy. 
We have policy differences, but these should never compromise 
the day-to-day operation of your Department and certainly not 
the safety of its personnel.
    Mr. Secretary, our Nation faces great challenges. Through 
it all, though, we must work together to ensure that America 
maintains its positive and essential role in the world. That is 
our challenge.
    And I will now turn to our ranking member, Mr. Eliot Engel 
of New York, for his opening statement.
    Mr. Engel. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back. We are fortunate to have you 
as our top diplomat as we face so many challenges around the 
world. Whether it is violent extremism or nuclear 
proliferation, health epidemics or climate change, these are 
challenges that threaten our security and values, and that 
demands robust investment in international affairs. That is why 
the President has put forward a strong international affairs 
budget, and that is why his proposal deserves the support of 
Congress.
    The President's budget would end sequestration, something 
long overdue, including a 7.7 percent increase in international 
affairs spending. Why is this increase so important? The Kaiser 
Family Foundation reported recently that many Americans believe 
we spend much more on foreign assistance than we actually do.
    Here are the facts: International affairs totals just over 
1 percent of our Federal budget, and foreign aid accounts for 
less than 1 percent. With that narrow sliver of the pie, we are 
keeping Americans safe, strengthening ties around the world, 
and promoting American leadership abroad.
    We are getting a pretty good bang for our buck. Still, we 
can always be more effective, more efficient, and more focused. 
And I would like to mention a few of my questions and concerns.
    Let me start with institutional and bureaucratic challenges 
of the State Department. We need a Department that can adapt to 
evolving foreign policy and national security issues. We need 
diplomats equipped to deal with constantly changing demands.
    Are we recruiting the best talent? Do our diplomats have 
the tools and training they need to do their jobs right? I am 
curious about how the Department will implement the forthcoming 
recommendations of the Quadrennial Diplomacy and Development 
Review.
    On our response to the Ebola outbreak, Mr. Secretary, I 
want to applaud you, the State Department, USAID, and the 
thousands of heroic Americans who have played such an important 
role. This crisis has required tremendous resources, and our 
strategy is working. The situation in West Africa continues to 
improve, but we must remain vigilant until this scourge has 
been eliminated.
    This crisis underscores the need for global health funding. 
Preventing future epidemics requires investment in research, 
infrastructure, and personnel. So I am disappointed by proposed 
cuts to global health programs dealing with tuberculosis, 
neglected tropical diseases, and other dangerous illnesses. I 
would like to find a way to avoid these cuts and keep giving 
these programs the resources they need.
    Turning to Ukraine, I have serious doubts that the Minsk 
agreement will end this crisis. We have taken a handful of 
incremental steps, but they have not been enough to get ahead 
of the crisis or deter further Russian aggression. The United 
States has a major interest in Europe's stability and security. 
Decades of American investment is on the line. I know dealing 
with the Kremlin is delicate, but we must not allow Ukraine to 
lose more territory or to fail economically.
    In the Middle East, more than 11 million people have been 
driven from their homes in Syria and more than 200,000 have 
been killed. This crisis has spilled across borders. It has 
created large-scale vulnerability to sexual assault, child 
marriage, hunger, and other kinds of abuse and exploitation. 
The budget prioritizes this humanitarian disaster, but much 
more needs to be done by both the United States and regional 
partners.
    This crisis has been fueled by political instability in 
Iraq and Syria. The new Iraqi Prime Minister has taken some 
steps to make Iraq's political system more inclusive, but we 
remain far from the point at which Sunnis, Shia, and Kurds feel 
like they have a stake in Iraq's future.
    The way forward in Syria is even less clear, but we know 
one thing for certain. That country's future should not include 
Assad. As you have said, Mr. Secretary, he is a one-man super 
magnet for terrorism. So while we are going after ISIS or the 
Islamic state, we should not forget that Assad must go. He 
cannot be part of a Syria for the future.
    On that note, I welcome the President's decision to send 
Congress a request for a new authorization to use military 
force, AUMF, against ISIS. The President's proposal is a 
reasonable starting point, and this committee will continue our 
efforts to review the language and the overall strategy to 
defeat ISIS. I look forward to working with you and my 
colleagues on both sides of the aisle to make sure we get this 
right.
    Briefly, on Iran, I have said many times that my preference 
is a negotiated solution to the Iranian nuclear crisis. 
However, we are hearing troubling reports on the scale and 
duration of the program, that Iran may be allowed as part of a 
deal. As you have said many times, Mr. Secretary, no deal is 
better than a bad deal. And so we must ensure that Iran has no 
pathway to a nuclear weapon, and that's any deal we sign is a 
good deal.
    And, finally, I want to commend the proposed $1.1 billion 
in funding to address root causes of child migration from 
Central America. We need to ensure that these resources are 
targeted toward the most vulnerable communities that the 
children are coming from across this sub-region.
    And, finally, getting back to Europe and Ukraine and 
Russia, I really believe that NATO hangs in the balance. I 
think, if Putin continues to push Ukraine around and threaten 
other countries and NATO is not a sufficient deterrent, we are 
sort of sending the word to Putin that we are really a paper 
tiger.
    So I wish you would talk about that a little bit because I 
really do believe the future of NATO hangs in the balance. Four 
countries give 2 percent of their budget to defense as is 
required, and that is very, very troubling in terms of NATO.
    So I thank you, Mr. Chairman, and I look forward to the 
Secretary's testimony.
    Chairman Royce. Thank you, Mr. Engel.
    This morning we are pleased to be joined by Mr. John Kerry, 
the 68th Secretary of State.
    And, Mr. Secretary, welcome again here to the committee.
    Without objection, the witness's full prepared statement 
will be made part of the record and the members here--each of 
you will have 5 calendar days to submit any statements, 
questions or extraneous material for the record you may wish to 
submit.
    So, Mr. Secretary, if you'll open for 5 minutes, then we 
will go to the members for their questions.

 STATEMENT OF THE HONORABLE JOHN F. KERRY, SECRETARY OF STATE, 
                    U.S. DEPARTMENT OF STATE

    Secretary Kerry. Well, thank you, very much, Mr. Chairman, 
Congressman Engel, ranking member, all the members of this 
committee.
    In respect of your time, I will try to summarize my 
comments, Mr. Chairman. I hope I can do it in 5 minutes. 
Thereis a lot to talk about. And your questions will, needless 
to say, elicit an enormous amount of dialogue, which I really 
welcome.
    I can't think of a moment where more is happening, more 
challenges exist, there's more transformation taking place, 
some of it with great turmoil, a lot of it with enormous 
opportunity that doesn't get daily discussion, but all of it 
with big choices for you, for us, you representing the American 
people, all of us in positions of major responsibility at this 
important time.
    We rose to the occasion, obviously, and we would like to 
extol it. We all talk about it. I did certainly as a Senator. I 
do as Secretary of State. And that is the extraordinary 
contribution of the greatest generation and what they did to 
help us and our leaders did, Republican and Democrat alike, to 
put us on a course to win the battle against tyranny, 
dictatorship, and to win the battle for democracy and human 
rights and freedom for a lot of people.
    And no country on the face of this planet has expended as 
much blood, put as many people on the line, lost as much of our 
human treasure, to offer other people an opportunity to embrace 
their future, not tell them what it has to be. It is really a 
remarkable story.
    And now we find ourselves in a moment where we have to make 
some similar kinds of choices, frankly. I don't want to 
overblow it. I am not trying to. But this is a big moment of 
transformation where there are literally hundreds of millions 
of people emerging on this planet, young people. Count the 
numbers of countries where the population is 65 percent under 
the age of 30, 60 percent 30 and under, 50 percent under the 
age of 21. I mean, it is all over the place.
    And if they live in a place where thereis bad governance or 
corruption or tyranny in this world where everybody knows how 
to be in touch with everybody else all the time, you have a 
clash of aspirations, a clash of possibilities and 
opportunities. And to some degree, that is what we are seeing 
today. That certainly was the beginning of the Arab Spring, 
which is now being infused with a sectarianism and confusions 
of religious overtones and other things that make it much more 
complicated than anything that has preceded this.
    By the way, the Cold War was simple compared to this. 
Bipolar, pretty straightforward conversations. Yeah. We had to 
make big commitments, but it wasn't half as complicated in the 
context of dealing country to country and with tribes, with 
culture, with a lot of old history, and it is a very different 
set of choices.
    In addition, that is complicated by the fact that many 
other countries today are growing in their economic power, 
growing in their own sense of independence, and not as willing 
to just take at face value what a larger G7 or G20 country 
tells them or what some particular alliance dictates. So that 
is what we are facing.
    And I heard the chairman say, you know, we shouldn't 
compromise the day-to-day operations of the Department, but let 
me say to you the day-to-day operations of the Department are 
not confined to making an Embassy secure. We need to do that. 
But if that is all we do, folks, we are in trouble. We are not 
going to be able to protect ourselves adequately against these 
challenges that we face that we will talk about today.
    The United States--you know, we get 1 percent of the entire 
budget of the United States of America. Everything we do abroad 
within the State Department and USAID is within that 1 percent. 
Everything. All the businesses we try to help to marry to 
economic opportunities in a country, all the visas, the 
consulate work, the diplomacy, the coordination of DHS, FBI, 
ATF--I mean, all the efforts that we have to engage in to work 
with other countries' intelligence organizations and so forth 
to help do the diplomacy around that is less than 1 percent.
    I guarantee you more than 50 percent of the history of this 
era is going to be written out of that 1 percent and the issues 
we confront in that 1 percent. And I ask you to think about 
that as you contemplate the budgets because we have been 
robbing Peter to pay Paul and we have been stripping away our 
ability to help a country deal with those kids who may be ripe 
for becoming part of ISIL. We have been diminishing our 
capacity to be able to have the kind of impact we ought to be 
having in this more complicated world.
    Now, I am not going to go into all of the detail because I 
promised I would summarize. But I believe the United States is 
leading extraordinarily on the basis of that 1 percent. We have 
led on ISIL, putting together a coalition for the first time in 
history that has five Arab nations engaged in military activity 
in another Arab country in the region against--you know, Sunni 
against Sunni.
    I don't want to turn this into that sectarian, but it is an 
important part of what is happening. We helped to lead in the 
effort to transition in Iraq a Government that we could work 
with. Part of the problem in Iraq was the sectarianism that the 
former Prime Minister had embraced, which was dividing his 
nation and creating a military that was incompetent, and we saw 
that in the context of Mosul.
    So we wanted to make sure that we had a Government that 
really represented people and was going to reform and move in a 
different direction, and we worked at it and we got it. We have 
it today. Is it perfect? No. But is it moving in the right 
direction? You bet it is.
    In Afghanistan, we rescued a flawed election, brought 
together the parties, were able to negotiate to get a unified 
unity Government, which has both of the Presidential candidates 
working together to hold Afghanistan and define its future and 
negotiate a BSA that defines our future going forward and give 
Afghanistan a chance to make good on the sacrifices of 14 years 
of our troops and our contributions and so forth.
    On Ebola, we led that fight. President Obama made a brave 
decision to send 4,000 young American troops there in order to 
set up the structure so we had a capacity to be able to try to 
deal with it. One million deaths were predicted by last 
Christmas at the time that we did that.
    And not all the answers were there for questions that were 
real, but the President sent those people in. We have made the 
difference. And now there's a huge reduction in the cases in 
Liberia, Sierra Leone, Guinea, and we are not finished, but we 
are getting to a place where you are not seeing it on the 
nightly news every day and people aren't living in fear here 
that they are about to be infected.
    On AIDS, we are facing the first AIDS-free generation in 
history because of the work that we have done.
    On the Ukraine, we have held together Europe and the United 
States in unity to put in place sanctions. The ruble is down 50 
percent. Therehas been $151 billion of capital flight from 
Russia. There has been a very significant impact on day-to-day 
life, on food, product availability. The economy is predicted 
in Russia to go into recession this year. And we are poised yet 
to do another round, potentially, depending on what happens 
with Minsk in these next few days.
    On Iran, we have taken the risk of sitting down, of trying 
to figure out is there a diplomatic path to solve this problem. 
I can't sit here today and tell you I know the answer to that, 
but I can tell you it is worth trying before you go to more 
extreme measures that may result in asking young Americans yet 
again to put themselves in harm's way.
    We are pursuing the two most significant trade agreements 
of recent memory, the TPP in Asia, Pacific, and the TTIP in 
Europe, both of which represent about 40 percent of GDP of the 
world, in order to have a race to the top, not a race to the 
bottom. And if we can achieve that, we will be achieving a 
major new structure with respect to trade rules on a global 
basis.
    In Africa, we held the African Leaders Summit, an historic 
summit with more than 40 African leaders coming to Washington, 
out of which has come a series of events that will help, we 
hope, to meet our obligation to help transform Africa.
    And, finally, on climate--there are other things, 
incidentally. I am just skimming the surface of some of the 
most important. I know not everybody here is a believer in 
taking steps to deal with climate. I regret that. But the 
science keeps coming in stronger and stronger and stronger.
    On the front page of today's newspapers are stories about 
an Alaskan village that will have to be given up because of 
what is happening with climate change. There is evidence of it 
everywhere in the world. And we cut a deal with China, 
improbable as that was a year ago.
    The biggest opponent of our efforts has now stood up and 
joined us because they see the problem and they need to respond 
to it. And so they have agreed to target for lowering their 
reliance on fossil fuel and a target for alternative renewable 
energy by a certain period of time, and we have set targets. 
And that has encouraged other countries to start to come 
forward and try to take part in this effort.
    So I will adamantly put forward the way in which this 
administration is leading. I know not everybody agrees with 
every choice. Are there places where we need to do more? Yes. 
And we will talk about those, I'm sure, today. But we need to 
work together.
    I will end by saying that, historically, that 1 percent has 
produced more than its monetary value precisely because your 
predecessors were willing to let foreign policy debate and 
fight become bipartisan. Let politics stop at the water's edge 
and find what is in the common interest of our country.
    That is what brings me here today. That is why I am so 
privileged to serve as Secretary of State at this difficult 
time, because I believe America is helping to define our way 
through some very difficult choices.
    And last thing. This is counterintuitive, but it is true. 
Our citizens, our world today, is actually--despite ISIL, 
despite the visible killings that you see and how horrific they 
are, we are actually living in a period of less daily threat to 
Americans and to people in the world than normally--less 
deaths--less violent deaths today than through the last 
century.
    And so even the concept of state war has changed in many 
people's minds, and we are seeing now more asymmetrical kinds 
of struggles. So I would say to you that I see encouragement 
when I travel the world. I see people wanting to grow their 
economies. I see vast new numbers of middle class, people who 
are traveling. I see unbelievable embrace of new technologies. 
I see more democracy in places where it was nonexistent or 
troubled. Big changes in Sri Lanka and other countries. We can 
run the list.
    But I hope you will sense that it is not all doom and gloom 
that we are looking at. Tough issues? Yes. But enormous 
opportunities for transformation if we will do our job and 
continue to be steady and put on the table the 
resourcesnecessary to take advantage of this moment of 
transformation.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you, Mr. Secretary.
    [The prepared statement of Secretary Kerry follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Chairman Royce. Mr. Secretary, you are certainly right. It 
is not all gloom and doom. But the reality for us is that, even 
as we discuss these issues, there are still rallies going on in 
Iran in which the refrain is, ``Death to America. Death to 
Israel.''
    Even as we attempt to engage--and we hope that we get a 
verifiable agreement--but even as we attempt this, we still 
have the Ayatollah and we still have the cadres that come out 
and say: ``Death to the Great Satan. Death to the Little 
Satan.'' And that is a reality that we have to face because 
sometimes, when people communicate those types of threats, they 
mean it.
    And I mentioned my concern about the direction of the Iran 
talks. And, of course, we understand we are still negotiating 
in this, and I understand you have cautioned not to judge a 
deal we haven't yet seen. But it is important that the 
administration know the committee's concerns as you negotiate.
    And one thing we do know is that Iran has continued to 
stonewall international inspectors concerning its past bomb 
work. And as you have acknowledged, this is a critical part of 
these negotiations and it is a fundamental test of Iran's 
commitment. And it has been well over a year, I think.
    And I have talked to the Secretary General of the IAEA 
about this. You know, I saw press this morning. I don't know if 
this is correct or not--and we could go into closed session at 
some point to discuss it--about the concern of a secret 
facility.
    But the concern I have at the moment is what the Secretary 
General says, and he indicates that he is concerned about signs 
of military-related activities, including a--including Iran 
designing a nuclear payload for a missile.
    Inspectors in Iran, you know, they--or the IAE inspectors 
have amassed over 1,000 pages which showed research, 
development, and testing activities on technologies needed to 
develop a nuclear weapon. And of the 12 sets of questions that 
the IAEA has been seeking since 2011, Iran answered part of one 
of those.
    And so I would like to ask you for a response on the 
concerns on the part of the IAEA and us on the committee.
    Secretary Kerry. Well, they are legitimate. And the 
questions have to be answered, and they will be, if they want 
to have an agreement.
    Chairman Royce. Well, we had 350 members write you 
expressing deep concern about this lack of cooperation. And, of 
course, from our standpoint, unless we have a full 
understanding of Iran's program, we are not going to be able to 
judge a year's breakout time with certainty.
    That is the conundrum we face here. And they are 
withholding that information. And without going into detail 
again--but, as you know, I have concerns about the fact they 
were caught with that supersonic centrifuge, testing that, and 
the whole procurement issue.
    Secretary Kerry. Let me just say, on that centrifuge, when 
you say ``supersonic,'' they have some advanced centrifuges 
that do more than the centrifuges they have today. We are well 
aware of that. We have been tracking all of that.
    And, really, there was a misunderstanding of the language 
in the interim agreement which did allow current testing. There 
was a question about whether that had been current. We raised 
it, and immediately, within 24 hours, it ceased. There was no 
question. And therehas been no further effort on that.
    In fact, the IAEA has signed off that Iran has complied 
with every single component of the interim agreement.
    Chairman Royce. And let me----
    Secretary Kerry. We raised these questions regarding the 
IAEA, Mr. Chairman. And, as I said, they are going to have to 
be answered. So that is part of the discussion right now.
    Chairman Royce. There is a piece today in the New York 
Times: ``Inspectors say Iran is evading questions as nuclear 
talks enter a crucial stage.'' Per my conversations with the 
IAEA, I know those concerns are there.
    I want to just turn to broadcasting reform to discuss that 
with you because I know, in an exchange you had yesterday in 
the Senate, you expressed your frustration that our effort to 
confront Russian propaganda is simply nowhere near where it 
ought to be.
    It is an area where Mr. Engel and I also share frustration. 
We know that Putin is dominating the essential information 
battle on the ground. But this isn't just about resources. It 
is also about what we can do with an initiative for the 
Broadcasting Board of Governors to overhaul that institution 
and make it effective.
    Myself and Mr. Engel put that bill into the Senate last 
year. We were not able to get it up and passed. And the 
question I wanted to ask was for your assistance on the Senate 
side in getting our legislation through this year so that we 
can get the reform that this troubled agency needs and get up 
and running with the type of broadcasting that you and I, I 
think, want to see to offset what President Putin is doing 
right now.
    Secretary Kerry. All I can say is, Mr. Chairman, I am with 
you 100 percent on this. I look forward to working with you 
further. I appreciate your leadership on this issue. You have 
been a champion of reform on the BBG.
    I am absolutely committed to the reform of the BBG. And our 
next meeting is on April 29. I have had long conversations with 
our Under Secretary for Public Diplomacy, Rick Stengel, who is 
very seized with some things we need to try to achieve.
    Now, there are two issues here. One is sort of the reform 
of the BBG, and the second is what we ought to be doing on a 
global basis with respect to the propaganda that is coming out 
of Russia.
    On the BBG, we have had a slight difference with you on the 
issue of whether it is improved to have a situation where you 
have two boards and two CEOs. I think you know I raised that. 
And, also, I think State, given our engagement with it, needs 
to be part of that process. I am confident we can find a way to 
drive this more effectively.
    The bigger issue is: What is Congress prepared to do in 
terms of putting some resources on the line to help us do this? 
I have found, when I have traveled to the Baltic region or to 
Poland or to Bulgaria recently and elsewhere, they are just 
getting flooded with propaganda. And propaganda is exactly 
that. It is propaganda. It has the ability to affect the minds 
of those who hear it if they don't hear alternatives.
    Chairman Royce. Yeah. Well, Mr. Secretary, we are on the 
same page with you. I think your request was 1.3 million to 
confront Russian propaganda in this budget.
    Secretary Kerry. Correct.
    Chairman Royce. We are on the same wavelength--Mr. Engel 
and I and the committee--with you on this.
    If I could just turn to one other issue that is going to be 
a topic here----
    Secretary Kerry. Sure.
    Chairman Royce [continuing]. Of this hearing today, and 
that is the question that is on our mind in terms of AUMF to 
ensure that the Commander in Chief has the authority needed to 
decisively defeat the enemy. And that will be part of our 
dialogue here with you this morning.
    I will turn now to Mr. Engel for his opening questions.
    Mr. Engel. Thank you, Mr. Chairman.
    And, again, welcome, Mr. Secretary.
    Mr. Secretary, I mentioned to you just before the hearing 
began my concern about a report that was in yesterday's New 
York Times that says, ``Negotiators weigh plan to phase out 
nuclear limits on Iran.''
    And, essentially, it is saying that we would possibly 
accept a fudging, so to speak, of how many years Iran would be 
prohibited from these various moves to have a nuclear weapon, 
whether it would be 10 years, 15 years, so on and so forth.
    But it essentially would ease limits on Iran's production 
during the later years of an accord and saying that, by doing 
that, it would be an attempt to bridge the differences between 
the two sides over how long an agreement should last.
    Can you talk about this. Because it is very disturbing. 
Obviously, I believe and others believe and I know you believe 
that the longest amount of time preventing Iran from gearing up 
to have a nuclear weapon is preferable. And if we are sort of 
fudging it, if those reports are true, at the end, it is very 
concerning.
    You know, no one here, certainly not you, needs to be told 
about the threat of Iran and that Iran having a nuclear weapon 
would be a game-changer. We need to support our ally Israel. 
Iran is an existential threat to them.
    And so, when I hear that the end portion of this agreement 
is sort of nebulous or we are going to be a little cloudy about 
it, it is very disturbing. So I would like your response to the 
report in the New York Times.
    Secretary Kerry. Absolutely. Couldn't be a more important 
topic, and I absolutely welcome the chance to talk about it.
    I regrettably can't talk about it as much as I would love 
to talk about it because we don't have a deal yet. And so I am 
not going to go into great lengths and detail here for that 
reason. And I would caution others not to be running around 
combating a deal that hasn't been made.
    Secondly, I will say, Ranking Member, you just said--the 
language you used was we don't want to see a reduction of these 
measures that might then permit Iran to go build a nuclear 
weapon.
    Please understand there is no reduction at any time that 
permits Iran to build a nuclear weapon. Iran is forbidden from 
building a nuclear weapon. That is the nature of membership in 
the Nonproliferation Treaty, which they are a member of, and 
that is the nature of certain responsibilities that you accept 
in the context of verification and transparency.
    Now, I am not going to go into all of that here today 
except to say to you that, obviously, that has got to be 
adequate. Unlike North Korea, which is not a member of the NPT, 
Iran has certain obligations that go forever.
    So don't get lured into believing that because something 
might change or be reduced with respect to, you know, some 
component they are allowed to do or install, et cetera. 
Countries that live by the NPT are permitted to have a peaceful 
nuclear program. That means they can produce power for their 
nation with a nuclear plant.
    Japan has very intrusive inspection, and they enrich and 
they are engaged in producing fuel and doing their capacity. 
Now, Iran has already mastered the fuel cycle, folks. They did 
that a number of years ago.
    When President George W. Bush was President in 2003, the 
Bush administration policy was no enrichment. And Iran went 
from 164 centrifuges to 19,000 that are installed. And thereis 
claims of some others being out there, which we are going out. 
So, you know, they have learned how to enrich. By the way, a 
different administration had an opportunity to stop them or do 
something, and they didn't.
    So we are where we are today. They know how to do the fuel 
cycle. And the question is going to be: What restraints can you 
put on that now in a way that guarantees you that you know they 
are not going to build a nuclear weapon?
    We have said there are four pathways to that nuclear 
weapon. One is through Fordow. Another is through Iraq. The 
other is through Natanz. And the fourth is through covert. 
Covertis hard. That is the hardest.
    So we are now negotiating the methods by which we can show 
that the four paths are cut off and that they are not cut off, 
folks, for 2 years, 3 years, 4 years, 5 years. They are cut off 
forever, for as long as they are living up to the NPT. And you 
have to build some process of a knowledge base and of a system 
that gets you there over a period of time. That is what we are 
trying to do.
    So, Mr. Chairman, today I don't want to jeopardize these 
talks. I don't want to mischaracterize them in any way. They 
are tough. They are hard. There are some very big issues yet to 
be resolved. We are not there. But we are not going to evade in 
on a piecemeal basis, and we certainly don't think it is 
appropriate to condemn it before everybody knows what it, in 
fact, is, if there is an is.
    Mr. Engel. Mr. Secretary, I want to ask you a final 
question about Ukraine. I believe that the United States should 
provide Ukraine with defensive weapons. I know that Germany and 
France have resisted it. I really think that whathas happened 
with Ukraine--under the 1994, as you well know, Budapest 
Memorandum, Ukraine gave up their nuclear weapons with 
assurances from the U.S., the U.K., China, and Russia that they 
would be protected.
    We haven't, in my opinion, lived up to the 1994 Budapest 
Memorandum at all. And, as I said in my opening remark, I think 
that the credibility of NATO is hanging in the balance with 
Putin bullying all the countries around Ukraine.
    I am wondering if you could--you can comment on the 
defensive weapons to Ukraine to help them repel Putin's 
aggression.
    Secretary Kerry. Well, we have sent a lot of different 
items to Ukraine, actually, over a period of time. We are one 
of the more significant donors. We have been sending counter-
battery radars. We have been sending night vision. We have been 
sending communications gear, MRAPs. I mean, thereis a long list 
of items that we have sent.
    And, in addition, we have been--let me just run through--we 
have got about 118 million we have given in training and 
equipment; 52 million including body armor, helmets, advanced 
radios, explosive ordnance, disposal robots, rations, first aid 
kit supplies; 47 million in protective gear for state border 
guard service, vehicles, up-armored SUV, heavy engineering 
equipment, thermal imaging, monitoring equipment, patrol boats, 
uniforms, generators.
    And we provided training and equipment to six companies and 
headquarters elements--that is about 600 personnel--and 
Ukrainian National Guard, and thereis more. So we have been 
doing a lot.
    I think everybody understands that we are not going to be 
able to do enough under any circumstance, that, if Russia 
decides to match it and surpass it, they are going to be able 
to do it. Everybody knows that, including President Poroshenko.
    The debate is whether or not there are some weapons that 
could be given to them that give them a greater ability to 
defend themselves in order to prevent the creeping land-
grabbing that has been taking place or at least raise the cost. 
That is a very legitimate discussion.
    President Obama has not yet made that decision partly 
because even yesterday there was a meeting in Paris of the 
Russian Foreign Minister, the Ukrainian Foreign Minister, and 
the French and German Foreign Ministers to measure the 
implementation of Minsk and to see if they can move further. 
Some weapons have been pulled back. Some troops have been 
pulled back. Obviously, Debaltseve was the site of a continued 
battle. That is a violation. There have been many violations of 
the Minsk cease-fire since then.
    So the measurement now is: Are we on a downward track to 
actually seeing an implementation or is there now a Mariupol or 
some other effort that may be taking place which would 
immediately merit a much more significant response, which is 
teed up? And that could be very serious, next level of 
sanctions, coupled with other choices the President may or may 
not make.
    Chairman Royce. We go now to Ileana Ros-Lehtinen, chair of 
the Middle East and North Africa Subcommittee.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    Welcome, Mr. Secretary.
    I will ask about Iran, Cuba, Venezuela, and the 
Palestinians.
    You testified in the Senate yesterday that, ``The policy is 
Iran will not get a nuclear weapon.'' However, last month your 
deputy, Tony Blinken, testified that the deal being negotiated 
is meant only to constrain Iran's breakout capabilities. So 
which one is it? Constraining or eliminating?
    And if the deal is to truly prevent Iran from ever 
acquiring a nuclear weapon, then why are we allowing Iran to 
enrich, to keep some of their stockpiles and centrifuges?
    Your agreement is based on the assumption that we can 
verify if Iran cheats, but the Defense Science Board and former 
CIA Director, General Hayden, have stated that our capability 
to detect Iran's undeclared or covert nuclear sites is either 
inadequate or does not exist. So can we catch when Iran cheats? 
And when they do cheat--not if, but when--what consequences 
will Iran suffer?
    And a report surfaced yesterday, as the chairman said, of 
an undeclared Iranian enrichment site. What information can you 
share about this new site? And how will this development impact 
the negotiations?
    On Cuba, Mr. Secretary, yesterday in the Senate you said, 
``The change that we are making we believe actually assists the 
United States to be able to promote the democracy and the 
rights that we want for the people of Cuba.''
    However, a Cuban spy, Josefina Vidal, who is leading the 
Castro delegation, this week said that Havana will not accept a 
U.S. Embassy that will assist Cuba's civil society and said 
that, ``Change in Cuba isn't negotiable.''
    Now, the regime has arrested over 300 opposition members in 
just the last 2 weeks. Berta Soler was among them. Only 3 weeks 
ago, Mr. Secretary, she was sitting in your chair, testifying 
before our committee on the gross human rights abuses going on 
in Cuba today. She returned to Cuba on a Saturday. She was 
arrested Sunday.
    Yet, the U.S.-Castro talks are still scheduled to go on 
here at the State Department on Friday, but the U.S. didn't 
even get one cosmetic commitment to democratic reform from the 
Castro regime and the regime keeps demanding more from us: 
``Give back GTMO,'' ``Pay us billions of dollars from the 
losses we suffered from the embargo.'' Utterly ridiculous.
    And just yesterday, Mr. Secretary, Raul Castro bestowed 
medals on those whom your administration pardoned, including 
Gerardo Hernandez, who was responsible for killing U.S. 
citizens. On the very anniversary of the killing of our 
citizens, Castro gave a medal to his killer, a killer who was 
pardoned by this administration.
    Of all the bad deals that we have seen--Bergdahl, et 
cetera--isn't this Cuba deal the weakest one yet?
    And on Venezuela, Mr. Secretary, just a few days ago, a 14-
year-old child was killed by police thugs--actually, just 
yesterday, 14 years old. He was shot in the head during a 
peaceful protest.
    Now, we in Congress passed a sanctions law to punish such 
acts, but you have not fully implemented our law. State's 
decision to deny some visas to some people is only a small slap 
on the wrist. People are dying in Venezuela, and all we are 
hearing is excuses. Enough is enough.
    Why have you not fully implemented every one of the 
sanctions laws that we passed against human rights violators in 
Venezuela? How many more peaceful demonstrators must die before 
you sanction them.
    And, lastly, on the Palestinians, our courts just a few 
days ago, as you know, ordered the Palestinian Authority and 
the PLO to pay for terror. And, yet, the PA has hired a DC 
lobbying firm. We all know that money is fungible.
    So isn't our money to the Palestinians actually paying for 
their court-ordered terror penalties and their lobbying efforts 
here in Congress?
    Secretary Kerry. Well, let me answer the last two very 
quickly, and then I will talk about the others.
    The answer is no. That money is not paying for it. In fact, 
that moneyis not flowing right now because of the ICC and what 
is going on. And the PA is nearly bankrupt at this moment. It 
is in nobody's interest, Madam Chair, for the PA to fall apart. 
That is not----
    Ms. Ros-Lehtinen. And on Cuba?
    Secretary Kerry. So we don't want that to happen.
    And I will come to Cuba in a minute.
    On the 14-year-old Venezuelan, that is horrendous. 
Venezuela keeps moving in the wrong direction and making the 
wrong choices. And the answer is the sanctions are being 
implemented right now as fast as possible. We are working with 
the National Security Council. We are working with the 
Department of the Treasury and other agencies to implement the 
provisions of the law as rapidly as we can.
    So we have no disagreement whatsoever on the egregious 
behavior, the repression of people, the arrests, the false 
accusations against us that are emanating out of Venezuela. We 
invite frequently President Maduro to realize that thereis a 
completely alternative set of options available to him. We hope 
he will take them.
    On Cuba----
    Ms. Ros-Lehtinen. But he can commit these acts with 
impunity because nothing happens. We really aren't implementing 
those sanctions.
    Secretary Kerry. Well, no. The law is being implemented. It 
is being implemented. Sanctions--you know, everybody thinks you 
just sort of slap them on day one. Thereis a very specific set 
of requirements in the law for what you have to do to prepare 
in order to----
    Ms. Ros-Lehtinen. How about the killer of this 14-year-old? 
We know who did it. Why didn't we sanction him yesterday? We 
have the video.
    Chairman Royce. We are going to have to keep moving. And I 
am just going to suggest----
    Secretary Kerry. Let me just say that sanctions are being 
applied.
    And Cuba--don't measure it by where it is today. Measure it 
by what begins to happen as this process of normalization takes 
place and we have an opportunity to be able to press those 
issues and shed more light on them and create the change we 
hope will take place. And I could go on at some length about 
that, but I want to get to the other things you mentioned very 
quickly.
    On Iran, there is no equivalency between--you know, with 
what Secretary Blinken was talking about with respect to 
preventing them from getting a weapon and the question of what 
happens with respect to their compliance with respect to their 
nuclear program.
    If you have a year of breakout time--by the way, everybody, 
I think it is a publicly known number that has been bantered 
around in the press that, prior to our joint agreement, the 
breakout time was about 2 months, maybe 3 max, but somewhere 
around 2 months.
    We have already extended that, and our effort in this 
agreement is to get a period of time--I am not going to say how 
long--but a period of time during which they have got to live 
by a 1-year breakout.
    Now, a 1-year breakout does not mean time it takes to get a 
bomb. A 1-year breakout is time it takes to get enough fissile 
material for one nuclear weapon, which they haven't yet 
designed or been able to test or put on a warhead or explode or 
anything. So that is many more years it takes to get there.
    We don't lose one option that we have today, not one 
option, during that period of time. Slap back on the sanctions. 
Make them worse than they are today or, of course, if you have 
to, you always have a military option. So we don't take away 
any option. We actually expand the period of time during which 
we can determine what is going on.
    Now, I will tell you, Israel is safer today with the added 
time we have given and the stoppage of the advances in the 
Iranian nuclear program than they were before we got that 
agreement, which, by the way, the Prime Minister opposed. He 
was wrong. And today heis saying, ``Oh, we should extend that 
interim agreement.''
    Ms. Ros-Lehtinen. Will you share the agreement with 
Netanyahu?
    Secretary Kerry. Of course. Of course. We continue--I think 
even today our Department is on the phone to the National 
Security Advisor and we are having calls. I have----
    Chairman Royce. Mr. Secretary, I am going to make a 
suggestion to the members here.
    Members, if you use the 5 minutes to ask your questions, we 
are just going to go on to the next member, and then we will do 
the response in writing.
    Secretary Kerry. Fair enough.
    Chairman Royce. We are going to go right now to Mr. Brad 
Sherman of California. Thank you.
    Mr. Sherman. I have a lot of questions for which I would 
just like a response in writing, and then I will end with one 
that I would like an oral response from.
    First, I want to commend the----
    Chairman Royce. I had actually hoped to encourage dialogue, 
if the gentleman----
    Secretary Kerry. Had the opposite effect, Mr. Chairman.
    Mr. Sherman. I am responding to the chairman's policies.
    Secretary Kerry. I am happy listen to an hour's worth of 
questions and will respond.
    Mr. Sherman. I want to commend you for the action regarding 
Ebola. I want to be one of the first to commend you for the 
administration's approach to Iraq and Syria.
    We got chemical weapons out of the area. Otherwise, 
theywould be in ISIS's hands. And we repelled attacks on the 
Haditha Dam, the Mosul Dam, and, most importantly, Baghdad, all 
without any U.S. combat casualties.
    Now, a lot of people throw out other ideas: You should have 
done this. You should have done that. Maybe they would have 
made things better. Maybe things would be worse.
    But I will tell you this: Every one of those other 
strategies would have resulted in an awful lot of American 
combat casualties. Your strategy has done more without 
casualties to Americans in the service than any other strategy 
could have.
    As to the Trans-Pacific Partnership, you say it shouldn't 
be a race to the bottom, but Vietnam is 30 cents an hour. That 
is the bottom. And we are told that we are going to get free 
access to the markets of Vietnam, but they don't have freedom 
and they don't have markets.
    They were told that there is going to be labor rights for 
Vietnamese workers. They don't dare assert them because the 
human rights situation is such that they risk their own lives. 
So, I mean, 30 cents an hour is the bottom, and that is what we 
are racing to.
    Also, as to China in this Trans-Pacific agreement, with the 
rules of origin in our other agreements, goods that are 50, 60, 
80 percent made in China can then go to another country, get 
slapped with a tag, and come into the United States duty free.
    The chairman raised the Broadcasting Board of Governors 
issue. I just want to raise one small part of that, and that is 
how important it is that we broadcast in the Sindhi language. I 
think I mentioned this to you before.
    This committeehas voted to spend $1.5 million a year to do 
that. And thereis no population in the world more important to 
world stability than that of Pakistan. There is no place where 
there are more crazy ideas than Pakistan. And if you are trying 
to reach a population, you can't just do it in Urdu.
    Senator Kerry, you championed recognition of the Armenian 
genocide. We now are about to have the 100th anniversary, and I 
would hope that you would show the courage that you are 
personally known for and, on April 24, use the world 
``genocide'' to describe what happened in Anatolia 100 years 
ago.
    In your earlier testimony, you said that Iran is not 
permitted to have a nuclear weapon ever because they are 
members of the NPT, unlike North Korea. North Korea was a 
member of the NPT. They withdrew in 2003.
    And I would hope you would clarify for the record that 
North Korea is not entitled to have a nuclear weapon and that 
Iran does not become permitted to have a nuclear weapon should 
they at some future time decide to withdraw from the NPT.
    I hope that you would furnish for the record a statement 
that our position is, once you are in the NPT, you cannot get 
out. Otherwise, every country is just one letter away from 
being permitted to develop nuclear weapons.
    You have talked about 1 year to breakout. What I am 
concerned about is how long to sneak out. The MEK sometimes 
gives us accurate information. They are the ones that told the 
world about the Iranian nuclear program. They now say that 
there is a secret facility at Lavizan-3.
    One approach is that--well, what I would like to know is: 
Are you willing to accept an agreement in which the IAEA does 
not have the right to go anywhere on short notice to look at 
undeclared or potentially undeclared or credibly believed to be 
undeclared nuclear sites or are we going to settle for the cat 
and mouse game in which you can tell us it is a year to 
breakout and the Iranians have undisclosed facilities and we 
can't even check them out?
    I would ask that he be allowed to answer that for the 
record.
    Secretary Kerry. Do we have time left?
    Mr. Sherman. I hope you have time for that one last 
question.
    Chairman Royce. We will do the last question, but we will 
need to keep moving. We only have 5 minutes for each member, 
and we want to get as many as possible.
    So go ahead with the last question.
    Secretary Kerry. Well, let me just say, clearly, Iran does 
not have a right to step out of the NPT and then go. And if 
they began to do that, we will hopefully--and this is part of 
what is being negotiated--have the ability to know immediately 
ifthere is any movement in that direction. And then we have all 
our options, as I said, that are available to us.
    Going a step further, on this secret facility, we are well 
aware of the accusation--or the allegations regarding that 
facility. It will obviously have to be--any questions would 
have to be answered to have any kind of an agreement, and I 
think people should rest assured that will take place.
    And on the IAEA, we are negotiating for the appropriate 
standards and process that the IAEA needs in order to be able 
to answer appropriate questions. That is a critical part of 
compliance with any NPT country. There is a process, as you 
know, that is required in order to achieve that. So that is 
obviously part of the negotiations.
    Chairman Royce. Mr. Chris Smith of New Jersey, chairman of 
the subcommittee on Africa and Global Health.
    Mr. Smith. Thank you very much, Mr. Chairman.
    I want to thank you, Mr. Secretary, for your service and 
for your leadership. I certainly like the use of your phrase 
``race to the top.'' If only that were true when it comes to 
respect for human rights among many countries around the world, 
including in China and Cuba.
    Ileana Ros-Lehtinen--we cochaired that hearing just 3 weeks 
ago, and Berta Soler sat right where you sit. We were all 
concerned about her welfare and well-being going back. And of 
course she was arrested when she went back for speaking the 
truth. On Friday her case and that of all the dissidents 
hopefully will be front and center. It has to be.
    I also a couple of years chaired one of 49 hearings on 
human rights abuses in China I have held. I can't even get a 
visa to go there anymore. We had five daughters who testified, 
all of whose fathers are political prisoners. All of them in 
unison as the hearing went on asked to meet with President 
Obama. They said, ``He has two daughters. He will understand.''
    I tried for months to arrange that meeting, 5, 10 minutes 
with these unbelievably wonderful five daughters speaking out 
for their dads in prison in China. We couldn't get it. I 
respectfully ask perhaps you can help make that happen. Gao 
Zhisheng's daughter is one of those. I know you know about 
Gao's case. And perhaps you might even meet with them as well.
    Let me ask you, on Nigeria, Mr. Secretary, will you 
immediately seek to restart and significantly expand critical 
military training of human rights-vetted Nigerian Armed Forces 
to combat the existential threat posed by Boko Haram?
    On Iran, the status of Pastor Abedini, Robert Levinson, 
Amir Hekmati, and Jason Rezaian from the Washington Post, do 
you expect that they will be free soon?
    And then, on the issue of child abduction, several 
deadlines have arrived, or are imminent, pursuant to the Sean 
and David Goldman International Child Abduction Prevention and 
Return Act.
    And I want to thank you publicly again for your strong 
personal support for the new law, including the process to 
develop and to enter appropriate procedures, including MOUs 
with non-Hague countries with unresolved child abduction cases 
like India. Japan--as you know, has signed the Hague 
Convention--has been breathtakingly unresponsive especially to 
abductions that occurred prior to the ratification of the Hague 
Convention.
    Iraq war veteran Michael Elias from northern New Jersey and 
numerous parents from the NGO BACHome have been utterly, 
utterly, frustrated even to meet with their children, much less 
get them back.
    And then there is the issue of India. Bindu Philips is a 
New Jersey mother of twin boys abducted to India 6 years ago. 
Bindu got full custody in a New Jersey court, testified before 
my subcommittee 2 years ago, and this past Monday I met with 
her in my office in New Jersey and she pleaded for you, Mr. 
Secretary, to help her to get her kids back.
    I just want to ask you because I know you have a heart for 
this: Did President Obama raise child abduction cases with 
Prime Minister Modi when they met in late January? Did you 
raise it on your trip earlier that month? And, if so, what was 
Mr. Modi's response?
    Secretary Kerry. Well, we have raised those cases. We raise 
them in every conversation that we have. In fact, all of our 
missing citizens--we have a number of them in various parts of 
the world and we raise them on a consistent basis not only 
through our Embassies, but anytime that I visit either here or 
go somewhere and we meet at high levels, we raise these issues 
by name.
    We have raised the names of the folks, Mr. Abedini, Mr. 
Hekmati, Mr. Levinson, Mr. Rezaian, most recently when I was in 
Geneva just a couple of days ago. And we consistently--and we 
are working--we actually have a process now in place where we 
are working quietly, trying to see what can be arranged.
    With respect to the parent child abduction, I have worked 
on that very, very hard when I was here. I worked on that as 
the Secretary and had a very tragic case in my State of 
Massachusetts, a gentleman whose kids were stolen and taken 
back to Egypt and we have been trying to get access back and so 
forth.
    We have a caseload of about 1,000 international parental 
abduction cases, and we are trying to expand The Hague 
abduction convention to efforts throughout the world. We have 
approximately 75 professionals who are full-time assisting 
parents with respect to this horrendous plight that they face. 
I mean, there is nothing worse, obviously.
    I applaud and thank you for your constant focus on these 
issues, Congressman. You are really the primary focus of the 
entire Congress on this, and we appreciate it enormously.
    With respect to Nigeria, I visited there recently in order 
to try to keep the election process from leading to violence. 
We knew there was a possibility of some delay. Now we are 
trying to make sure that this delay does not become an excuse 
for rigging the election, trying to steal it.
    We are working hard to have a transparent election, which 
would then give us leadership one way or the other, prepared to 
move forward on the military training, on the efforts to 
coordinate on Boko Haram. And, as you've seen, the neighbors 
have come together--Chad, Cameroon, others--in an effort to try 
to put pressure on Boko Haram. I am confident that, over time, 
we will be able to.
    We have done the proper Leahy vetting with respect to the 
units that we were training in Nigeria. I assure you that has 
not been the problem in our training program disruption. 
Unfortunately, equipment was not delivered to them internally 
that should have been given them. And, frankly, there have been 
some leadership challenges with respect to that.
    So, hopefully, this election can clear the air and put us 
in a position to move on an effort against Boko Haram and to do 
some of the training that you have talked about.
    Chairman Royce. Thank you, Mr. Secretary.
    We go now to Mr. Gregory Meeks of New York.
    Mr. Meeks. Thank you, Mr. Chairman.
    Mr. Secretary, it is good to see you.
    Let me first--you know, some have said that the United 
States no longer leads. I think they mean leading in a 
unilateral way. I want to compliment you on leading in this 
administration because I think leadership in today's world 
means leading in a multilateral way.
    And what you and this administration have done was bring a 
lead by bringing countries together, whether it is bringing the 
country together on the P5+1, which those sanctions is what put 
Iran into the position that it currently is in, whether it is 
bringing countries together to fight Ebola, bringing countries 
together when we deal with the Ukrainian and Russian situation, 
bringing countries together to deal with ISIL.
    That is leadership, and it is difficult leadership when 
everybody has their own competing interests. And I think that 
the leadership that we are doing today so that we can share 
this world that has shrunk by talking about, ``We just can't do 
it our way, by ourselves, with no one else'' is real 
leadership. It is hard work, and sometimes it is not thankful. 
So I appreciate the work that you are doing in that regard.
    It is difficult because, when I look at my constituents, 
for example, even going back to 2003, they have had a sense of 
both hope and skepticism when multilateral negotiations 
regarding Iran's nuclear program initiated. And there have been 
many stops and starts since that time. And my constituency has 
expressed strong concern over the years about the prospects of 
an agreement with Iran. The current multilateral negotiations, 
of course, are no exception. And today we are at the precipice 
of a deadline set by the P5+1 under the Joint Plan of Action.
    So my question simply is--and I want to ask three 
questions, and I am going to try to be quiet so you can answer 
them all--on this area, should my constituents that are so 
concerned--they tell me concerned and it is emotional for them 
because they are really concerned about the threat to Israel 
and about Iran having a nuclear weapon.
    So should they be hopeful or skeptical at this point in the 
current negotiations? And what would you consider a 
comprehensive agreement, knowing that we are not there, if we 
can do that? And how does the administration's budget support 
that end? That is on Iran.
    Quickly, I went to Asia just last week. I visited 
Singapore, Malaysia, and Japan. Clearly, there, being on the 
ground, was very helpful. Can you just tell us how important, 
when we look at TPP, for example, just on an economic side--but 
as I talked to some of those countries, they were looking at it 
also from a geopolitical aspect--how important it was for us to 
have a presence in the region.
    So how important is TPP with reference to--geopolitically 
on top of the economics? And then when you talk about Vietnam, 
maybe even talking about capacity-building they are in.
    Let me keep quiet and give you the few minutes I have. 
Because I just want to know whether we have any other tools 
because I--subcommittee on Europe----
    Secretary Kerry. Can you just clarify the second part of 
your question, which was how do we support that end regarding 
your constituents. What was the----
    Mr. Meeks. Well, the question is--I wanted to know whether 
or not with my constituents, who are skeptical----
    Secretary Kerry. All right. I got it, skeptical.
    Look, I think it is fair to be skeptical until you see the 
agreement, and it is important to be hopeful. And that's the 
way I would put it. I am not sitting here expressing 
confidence. I am expressing hope because I think we are better 
off with a viable, acceptable, good, diplomatic agreement than 
with the other choices. But it remains to see whether or not we 
can get that kind of an agreement.
    So I think it is healthy to approach something with a 
certain amount of skepticism until proven otherwise, but I 
wouldn't be damning it on the skepticism. I would just wait and 
be hopeful and see what we can produce. Give us a chance--I 
mean, look, remember how many people--I can remember sitting 
here--and I won't go into who said what, but there were plenty 
of folks in this committee who said, ``Terrible agreement. You 
are giving away the store. This can't work. They won't live up 
to it.'' I sat and listened to all of that, and I said, ``The 
proof is in the pudding.''
    Well, guess what, folks. They have lived up to every single 
piece of it. The 20 percent enriched uranium has been taken 
down to zero. That fuel has been shipped out. Stockpile is 
lowered. They have given us access to Fordow. They have given 
us access to the storage sites of centrifuges. They have given 
us access to the milling, the uranium, the mining. I mean, we 
have had--you know, they have stopped Iraq. They didn't do any 
further work on it. Everything they said, so that, in effect, 
they agreed to roll back their program and they rolled it back.
    So we are beginning now with, frankly, a baseline of a year 
of measurement. And you can't just dismiss that and throw it 
out the window. So I think that is cause for hope, and that is 
all I would say about it at this point in time.
    On TPP, of course there is a geopolitical component in 
this. If the rules of doing business are written by people who 
don't adhere to our standards of doing business, that is a race 
to the bottom.
    And if we are not helping to bring countries together to 
create an understanding of how we are going to treat each other 
in business, of what kind of access we will have of non-tariff 
barriers being eliminated, of fair trade in certain products 
and so forth--if there aren't rules that raise the standards, 
we are in trouble.
    Now, I will tell you right now labor standards, environment 
standards, business standards are all going to be written into 
this agreement in ways that they haven't been previously.
    In a place like Vietnam--and I know Vietnam pretty well 
because I was involved in the effort to end the embargo with 
George H W. Bush and then, ultimately, the normalization, and I 
have seen the transformation that has taken place.
    People are living a higher standard of living. People have 
the right to strike. They do strike. There are labor rights. It 
is not as uniform as in the United States, but a huge 
transformation is taking place.
    And there is no question in my mind that being able to 
implement this will be a game-changer for people's attitudes 
and possibilities as we go forward in the future.
    And China has actually said to us, ``Could we join this 
ultimately?'' And we have said, ``Of course you can, if you are 
prepared to adopt the standards.''
    So this is geostrategic. It is vital to America's presence 
in the region. And I urge everybody to think of it in that 
context. And that is part of the reason why TPA is so 
important.
    Chairman Royce. We are going now to Mr. Dana Rohrabacher of 
California, chairman of the Subcommittee on Europe and Emerging 
Threats.
    Mr. Rohrabacher. Thank you, Mr. Secretary.
    And, again, though we ask pointed questions, we wish you 
the best of luck and are very proud of the hard work that you 
are doing, even though we may have some disagreements with 
specific policy.
    It seems to me about your opening statement--when you 
talked about how complicated the world is right now as compared 
to what confronted the greatest generation, I just would like 
to respectfully disagree with you. The fact is that I believe 
what the difference was is not that the world wasn't so 
complicated, but that the greatest generation knew how to set 
priorities.
    And Reagan exemplified that in the Cold War when he said, 
``What is your goal with the Soviet Union?,'' who was our 
primary enemy at that time. He said, ``We win. They lose.'' And 
he knew that that was his number one goal. By the end of his 
administration, we had eliminated the Cold War without a direct 
military confrontation with what we had been at war with in the 
Cold War.
    I think that today we should set the priority, which is who 
is our primary enemy, who is the primary threat to the well-
being and security of our people. And I think that we have to 
come to the realization that radical Islam is the primary 
threat to our safety.
    And I know our President has a little bit of difficulty 
saying those words together, ``radical Islamic terrorism,'' but 
I have no problem saying it. And that is the primary enemy for 
the security of our people. That includes, by the way, the 
Mullah regime in Iran.
    Just right off the bat, when you mentioned that the Mullahs 
had actually went ahead and they have actually moved forward 
and accomplished the agreements that they had pledged to do 
about nuclear weapons, did the Mullah regime tell us about the 
existence of this new nuclear facility that our friends in the 
MEK who were permitted to sit out in the middle of the desert--
did we know about that nuclear facility?
    Secretary Kerry. Well, you are saying it is a nuclear 
facility. That has yet to be determined. But we know about the 
facility. Yes.
    Mr. Rohrabacher. So had the Mullahs disclosed that facility 
to us?
    Secretary Kerry. Well, it has not been revealed yet as a 
nuclear facility. It is a facility that we are aware of which 
is on a list of facilities we have. And I am not going to go 
into greater detail, but these things are obviously going to be 
have to be resolved as we go forward.
    Mr. Rohrabacher. Okay. Let me note that most of us have 
been somewhat upset because, again, the administration seems 
unable to prioritize the helping of our major friends. To me, a 
major friend is: Who is the greatest enemy of our enemy who can 
help bring down our enemy the most?
    For example, we have left--and, again, this leads to a 
question--we have left the most heroic person in this effort, 
Dr. Afridi, the heroic individual who helped us bring to 
justice Osama bin Laden, Osama bin Laden, the man who helped 
plan the murder, the slaughter, of 3,000 Americans on 9/11.
    Yet, the man who helped us bring him to justice has been 
sitting in a dungeon in Pakistan. And what do we get? I 
mentioned this to you last year. He's been sitting there the 
whole year. And, yet, the administration is still planning to 
give more than $500 million in aid to the Government that has 
basically committed the ultimate hostile act and slap in our 
face by putting Dr. Afridi in jail.
    Are we going to hold back any of that $500 million until 
they let Dr. Afridi go?
    Secretary Kerry. Are we what?
    Mr. Rohrabacher. Are we going to withhold any of the $500 
million in aid that we are proposing until they let Dr. Afridi 
go? And what message does that give to our friends if we let 
Dr. Afridi sit in that prison?
    And this is a message to the Kurds and anybody else. We are 
not going to help you. You may put yourselves on the line for 
us, but we are going to let you die a lingering death if that 
is what--rather than make some tough choices.
    Secretary Kerry. Well, we are not doing that, Congressman. 
We are actually--and I respect and appreciate your passion and 
concern for Dr. Afridi, which I share. And I have raised this. 
I raised it formerly with President Zardari and Prime Minister 
Sharif. We have raised it at the highest levels. We believe his 
incarceration is both unjust, unwarranted, unfair, 
counterproductive to our efforts, and we have made that case.
    Mr. Rohrabacher. We have made the case.
    Are we going to withhold the support, Mr. Secretary?
    Secretary Kerry. We believe the best way to try to solve 
this problem is to do this through the diplomatic channels, 
through regular communication direct and high-level engagement, 
which has a chance of being successful.
    Mr. Rohrabacher. That is where we disagree, Mr. Secretary.
    Secretary Kerry. I know.
    Mr. Rohrabacher. I don't think you have been successful at 
it. And it is symbolic to our other--the Kurds----
    Secretary Kerry. I can guarantee you----
    Mr. Rohrabacher. We have war trying to placate the people 
who are not our best friends in Iraq at the expense of the 
Kurds. We want to put them secondary, make sure they are put 
down in a subservient role to Baghdad.
    This whole idea that we can't prioritize and stand behind 
our friends is a problem. I think it is a strategic error on 
the part of administration.
    Secretary Kerry. Well, nobody is condoning or allowing 
people to be ``put down.'' In fact, we fought very hard for the 
arming which is taking place of the Peshmerga and of the Kurds 
for the oil deal that was made between Baghdad. In fact, it is 
thedirect contrary of what you just said. We are actually 
elevating the capacity----
    Mr. Rohrabacher. When you were here last year, it was one 
thing. We asked you about: Could we give weapons directly to 
the Kurds? Are we doing that now? Are we still saying it has to 
be approved by Baghdad?
    Secretary Kerry. Some things have gone to them directly. 
Some things have gone through Baghdad. And that is appropriate 
and it is working. Baghdad has seen to it that they are getting 
what they need and has worked very effectively in coordination 
with them. That is one of the virtues of what Prime Minister 
Abadi is bringing to the table right now.
    But I want to go back to your original comment, which I 
think really merits a moment, Mr. Chairman. When you say you 
disagree that there wasn't a greater simplicity to the choices 
of World War II, I am not diminishing it.
    I am one of the greatest admirers in the world. I am in awe 
of what they did. I have been to the beaches of Normandy--I 
don't know--15, 20 times. To me, it is religious ground. It is 
an amazing place.
    And everything that went on in that war is stunning in 
terms of the coordination of global effort to defeat fascism, 
tyranny, dictatorship. I don't simplify that. But I am telling 
you, in terms of a choice, it was communism, fascism, and 
tyranny versus democracy, freedom, and liberty.
    Mr. Rohrabacher. But it wasn't. We sided with the Soviet 
Union because we knew they were less priority. The Nazis and 
the Japanese had the highest priority.
    Secretary Kerry. Because they were going to help us defeat 
that particular----
    Mr. Rohrabacher. Correct.
    Secretary Kerry. I just want to finish.
    Chairman Royce. We understand both the gentlemen's points.
    Secretary Kerry. What you have today, what has been 
released as a result of the fall of Berlin Wall and all of the 
things that have happened with the Arab Spring, you have 
complications of tribes all over the place with different 
agenda. You have Sunni versus Shiite. You have Arab versus 
Persian. You have culture and Middle East and modernity and 
religion, a host of things and different agenda by different 
countries that are part of different efforts.
    For instance, the coalition to deal with ISIL is split on 
whether or not there ought to be a focus on Assad or not a 
focus on Assad. That is a complication. You begin to do one 
thing, you lose some. You do the other, you lose others. How do 
you hold them together?
    That was not the problem with respect to the challenge of 
whether or not you had to beat the folks in the Pacific and win 
in Europe at the same time in World War II. So there is a huge 
difference in how states are behaving today and in what their 
economic power is and in what choices they have.
    Chairman Royce. We go now to Mr. Sires of New Jersey, the 
ranking member of the Subcommittee on the Western Hemisphere.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here today.
    Mr. Secretary, one of the things that I read was that the 
largest democracy in the Western Hemisphere encouraged us to 
get rid of our embargo with Cuba, that it would help the 
relationship.
    I am just wondering why some of these countries are not 
speaking up against the abuses that go on in Cuba and in 
Venezuela. I mean, somebody pointed out before that a 14-year-
old boy was shot yesterday. Places like Brazil, how come they 
don't say anything about the human right abuses? How come they 
don't say anything? If they encouraged us, it seems like we 
were left alone. I just think they are fearful of Cuba stirring 
up the university students in some of these countries.
    Secretary Kerry. I don't know if that is the reason they 
don't do it, but I don't disagree with you. And not only, by 
the way, in this hemisphere. I think that there are a lot of 
countries in Europe and elsewhere that have been willing to do 
business without any kind of voice of accountability for those 
kinds of abuses.
    I think one of the things that will happen with our 
diplomatic presence, frankly, is an ability to help mobilize 
that, and we ought to. We are not going to turn our backs on 
one notion of what is important with respect to human rights 
democracy, change, so forth, and we have made that clear.
    Mr. Sires. Well, we could go on, but I have a couple of 
other questions.
    Secretary Kerry. I am sure you could.
    Mr. Sires. Well, that is what I'm here for.
    Colombia. You know, I have a great deal of Colombian 
population in my district. Some of the Colombians are concerned 
about our decision of sending Harrison, our envoy, to 
participate in this treaty. They feel that, if things don't 
turn out well, you know, Santos has somebody to blame, which 
has always been the ugly American in South America, which is 
us.
    I know that he asked. I know that we complied with his ask. 
But I was just wondering what do we really get out of this 
other than--if it doesn't go well and the Colombian people turn 
down this pact, we are going to wind up being the bad guys.
    Secretary Kerry. Let me tell you why I don't think we will. 
But it is a good point, and it is an appropriate question to 
ask because, under the wrong circumstances, it is possible that 
could happen.
    We are not at the table. We are not a negotiating partner 
in this.
    Mr. Sires. But the impression out there seems that we sent 
Harrison over----
    Secretary Kerry. We are doing this in order to try to help 
facilitate, if it is possible, because they believe that the 
United States could be very helpful as a friend and a partner 
because we have existing assistance programs to Colombia that 
are helping to lay the groundwork for the implementation of a 
possible peace agreement and because we have been so committed 
through the years.
    I mean, you all--certainly those you in the top daises 
here--were deeply involved in helping to do this, 1990s, Plan 
Colombia, highly controversial. We put a billion bucks and more 
on the line. We became deeply engaged. And together with the 
leadership of Colombians, a country that was near failed, 
certainly failing, turned itself around to become one of our 
most trade partners and allies in the region.
    Mr. Sires. Yeah. But they were pretty much outcasts, 
Colombia, because they were dealing so much with us. And that 
concern----
    Secretary Kerry. Well, there were----
    Mr. Sires. And the last question I have is----
    Secretary Kerry. Sure. But look at the success they are 
today. Measure their success today against countries that 
haven't chosen to do that.
    I think Colombia is a leader as a result, and I think other 
countries are saying, ``You know, maybe we are missing out. I 
think there is an effort we can make to do a better job of 
reaching out into Latin America.''
    We are trying to do that. That is part of what is in this 
budget, by the way, in the $1 billion we are trying to put----
    Mr. Sires. I am just concerned that we are going to wind up 
looking bad, as usual.
    The last question I have is: Where is our progress with 
Joanne Chesimard as far as being sent back to the United States 
to face trial? Joanne Chesimard is the Black Liberation 
Movement woman that killed a state trooper in New Jersey. And I 
read where the Cuban Government said, ``That is out of the 
question. We are not sending her back.''
    Secretary Kerry. We are continuing to seek the return from 
Cuba of fugitives from U.S. justice. We raised these cases. We 
have raised the case of Joanne Chesimard. We raised the case of 
William Guillermo Morales with the Cuban Government during the 
migration talks that just took place a few weeks ago. We raised 
those cases when we met in January. There is a meeting here 
Friday, and we will raise the cases again on Friday.
    And we have had some limited success in recent years. There 
are four non-Cuban national, U.S. national fugitives who have 
been returned to the United States since 2011. We are going to 
continue these discussions in the context of this new 
relationship and, hopefully, it might open the door.
    Chairman Royce. Mr. Steve Chabot of Ohio.
    Mr. Chabot. Thank you, Mr. Chairman.
    Thank you for being here, Mr. Secretary.
    Last week State Department Spokeswoman Marie Harf espoused 
the interesting proposition that we should create a jobs 
program for people who might be inclined to support groups like 
ISIS, jobs for Jihadists. She didn't call it that, but I will. 
And just where will these jobs come from? I guess not at the 
mall. It is apparently too dangerous to work there now.
    Are these shovel-ready jobs or are they yet to be created, 
like Keystone Pipeline jobs? And, Mr. Secretary, did Ms. Harf 
consult with anyone else in the State Department--yourself or 
anyone--before announcing this new initiative? If not, who did 
she consult with?
    I realize that, according to Ms. Harf, many of us are not 
nuanced enough to grasp the wisdom of such an enlightened 
proposal. And I am sure some of any colleagues would appreciate 
some insight just where in the heck this idea came from.
    Secretary Kerry. Well, Congressman, let me make it 
absolutely clear. That is not what she was saying, if you take 
the full breadth of what Marie Harf was talking about.
    In fact, what she was talking about is the notion that, if 
all we do is have a military approach to the problem of 
violent, religious extremism, whether it is Islamic or other, 
or whether there are violent extremists, we are going to fail. 
You will have the next Secretary of State or the one thereafter 
or a continuum of Presidents coming to you with new acronyms 
for new groups that are a threat.
    And everything that came out of our White House summit on 
violent extremism underscored the fact that there is one 
component that you have to do for sure, which is the military. 
You have to take ISIS fighters off the battlefield the way we 
are, and that is for certain. But if you don't want them just 
replenished, like those three kids from Britain who just 
traveled ostensibly to Syria to join up----
    Mr. Chabot. Another very disturbing thing that happened. 
Absolutely.
    Secretary Kerry. Okay. Well, let me just go further.
    It is not just kids from Britain. There are several 
thousand people from Russia. There are multiple hundreds of 
people from France, from Germany, from Australia. The 
Australians are in the targets now. This is a spreading cancer 
and it is not going to be eliminated by just shooting at people 
once they finally get to the battlefield.
    Everything that came out of the conference we just had the 
other day pointed to the need to deal with prevention. And a 
very distinguished professor who testified there, Dr. Peter 
Neumann from King's College in London, specifically who has d1 
years of research on this, talking about the nearly 4,000 
people who have gone since 2012 from Berlin, London, Stockholm, 
and Paris--they are all young people, and you can find them on 
Facebook, on Twitter, on Instagram, Tumblr, social platforms. 
They are talking, schticking back and forth, and nothing is 
answering it.
    Mr. Chabot. Thank you, Mr. Secretary. I have limited time 
here. I think I gave you extensive time to answer the question.
    Secretary Kerry. Well, I just want you to know--don't make 
fun of what she was talking about.
    Mr. Chabot. We have got an awful lot of young people that 
are unemployed in this country, and I think we ought to work on 
that.
    Secretary Kerry. That is not what she was talking about.
    Mr. Chabot. It sure sounded like it. I know it was awfully 
nuanced. But let me move on.
    Mr. Secretary, in mid-January, Taiwan's President Ma 
decided to release former President Chen Shui-bian on medical 
parole. As you may know, my Democrat colleague, Eni 
Faleomavaega, and I visited former President Chen in prison. He 
had a whole range of medical conditions: Multiple strokes, 
severe depression, Parkinson's disease, and on and on.
    We besieged President Ma to issue a medical parole--or 
humanitarian parole. He ultimately did. I give him credit for 
that. But it was only for 30 days. And he will probably, unless 
there is some change, be taken back. His condition was just 
startling.
    I would urge you to look at the case. I know it is an 
internal problem. I would like to say a country, Taiwan--you 
know, the PRC doesn't like that, but they are a de facto 
country. And I know that we, for the most part, consider that 
to be the case, although it is not necessarily our policy. You 
can't tell them what to do.
    But I would urge the administration to look at that matter 
and, to the extent that we can exercise some reason on the 
Taiwanese Government, that that parole be made permanent so he 
can stay with his family.
    Secretary Kerry. Will do.
    Mr. Chabot. Thank you very much, Mr. Secretary.
    Chairman Royce. We go to Mr. Connolly of Fairfax, Virginia, 
Gerry Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    Mr. Secretary, we had a hearing a few weeks ago, and the 
nuclear inspection model of South Africa came up. And the 
assertion was made that South Africa might be the ideal model 
for unannounced, unpredicted complete access. Anytime, 
anywhere--you name it--we get to inspect, and South Africa has 
agreed to that.
    Have we thought about using the South Africa model for IAE 
inspections with respect to our negotiations with Iran?
    Secretary Kerry. We are examining every possible model. We 
are looking at Japan, South Africa, all existing enriching 
country models. And we also have to measure whatever those 
models are against a particular country we are dealing with. 
But that is what we are doing.
    Mr. Connolly. I think some of us would be very interested 
in hearing more about that as you proceed.
    You have counseled us to keep our powder dry. After all, 
there is no agreement yet. I think you surely--having been in 
Congress as long as you were in Congress, you can understand, 
however, that there is anxiety while waiting, a means that I am 
handed a fait accompli. We don't amend the agreement.
    Meanwhile, we have the head of another Government coming to 
speak to Congress under circumstances that, in my view, are 
shameful, but, nonetheless, he's coming. And he's not keeping 
his powder dry.
    And he is somebody, as the ranking member indicated, with 
an existential concern about this. And he says that is going to 
be a bad agreement, ``It is so bad, that is why I am coming to 
speak to Congress. I have got to go over the heads of the 
Secretary of State and the President of the United States and 
plead with Congress and the American public to derail this 
agreement because it is going to threaten Israel and, frankly, 
other nations in the region.'' So he's not keeping his powder 
dry, Mr. Secretary.
    Secretary Kerry. I beg your pardon?
    Mr. Connolly. He's not keeping his powder dry. And it is 
awfully hard for us to pretend he is.
    Secretary Kerry. And that is something that you and people 
in Israel and everybody else have to make your judgment about. 
I am not going to get dragged into that particular choice or 
how it came about. I don't think that is helpful.
    I will say this----
    Mr. Connolly. It is his criticism I am asking you to 
address.
    Secretary Kerry. Well, let me say this. The Prime Minister, 
as you recall, was profoundly forward-leaning and outspoken 
about the importance of invading Iraq under George W. Bush, and 
we all know what happened with that decision.
    He was extremely outspoken about how bad the interim 
agreement was, during which time he called it the deal of the 
century for Iran, even though it has clearly stopped Iran's 
program. And, more importantly, he has decided it would be to 
good to continue it.
    So, you know, I talk to him frequently. We work very, very 
closely together. We are deeply committed. We, this 
administration--I think we have done more to help Israel. I 
have a packet of 25 pages or more of things we have done on 
behalf of Israel in the course of this administration to stand 
up for it, stand with it, protect, fight back against unfair 
initiatives.
    So we won't take a backseat to anybody in our commitment to 
the State of Israel. But he may have a judgment that just may 
not be correct here. And, you know, let's wait and hear what he 
says. I am not going to prejudge his statement any more than he 
should prejudge this agreement. But when we have heard, if 
appropriate, I will respond.
    Mr. Connolly. Thank you, Mr. Secretary.
    My other question has to do with the Minsk agreement. Since 
Minsk won, there have been over 300 violations, according to 
the European Union, and, in part, Minsk II exists because Minsk 
I kind of melted away with Russian aggression.
    Is Minsk the right framework for us, given Russian 
aggression, given what has just happened in eastern Ukraine? 
And does it sufficiently address the illegal annexation which 
should never be recognized of the Crimea? Doesn't all of this 
flow from the fact that perhaps the West was a little slow in 
responding to what happened in Crimea?
    Secretary Kerry. No. That is not what it flows from at all. 
And the answer is the Minsk agreement, if it were implemented, 
would be a good way to deescalate. And that is what everybody 
hopes for.
    This does not flow from what President Putin chose to do 
with respect to Crimea, which elicited a beginning response 
with respect to sanctions.
    It flows from a view Mr. Putin holds about the new Russia 
that he talks about and about his efforts to try to push back 
against what he feels is a threat from Europe and from us in 
the West in encroaching in what he deems to be his sphere of 
influence. We don't deal with spheres of influence in that way. 
We deal with independence and sovereignty of nations and 
respect for agreements.
    The Bucharest agreement says we would all protect--Russia 
included--would protect the territorial integrity of Ukraine. 
And long ago, through the United Nations and other agreements, 
the respect for international boundaries and lines and not 
taking territory by force and subterfuge has been the standard 
for which nations have been trying to fight.
    President Putin clearly has made a set of choices that 
violate all of that. So in Luhansk and Donetsk and now in 
Debaltseve, he has empowered, encouraged, and facilitated 
directly land grabs in order to try to destabilize Ukraine 
itself, and it stems from his policy, his decisions, which 
violate all the international norms with respect to territory 
and behavior.
    So we have, I think, made it very--I don't think anybody in 
this committee is suggesting the United States ought to be 
sending the 101st Airborne at this moment or the on 82nd or 
something even greater than that. That is not what I hear. I 
think people feel that this is a time for smart policy.
    And it is clear that, from the policy we put in place, the 
Russian ruble is down 50 percent. There has been $151 billion 
of capital flight from Russia. Russia is about to go into 
recession this year, according to economic predictions.
    So I think, while Putin may be achieving the short-term 
stuff, the long term is a problem, the long term for Russia. 
And I think we are pursuing a policy that is smart and 
effective at the same time.
    And our preference is to deescalate this, get back to the 
norms, and restore a relationship with Russia that could be 
more public and more productive in many, many different 
respects.
    Chairman Royce. Mr. Mike McCaul, chairman of the Homeland 
Security Committee.
    Mr. McCaul. Thank you, Mr. Chairman.
    Mr. Secretary, let me just say sincerely I want to thank 
you for your service in these very challenging times we find 
ourselves. I appreciate your comments about the greatest 
generation.
    My father was B-17 bombardier in the European theater. 
Truly was a great and is a great generation. They were all in 
and they were all in to win, and they won. And they defeated 
fascism.
    I see a new threat. It is Islamist extremism. It seems to 
me the best homeland security policy we can have is to 
eliminate the threat where it exists rather than it coming into 
the United States.
    Before this committee we will be deliberating an 
authorization for the use of military force. We had a meeting 
with White House officials--the chairman and myself and 
others--and were presented with the President's policy on this. 
I must say the reception was not a warm one.
    I have concerns, concerns of a timetable telling ISIS how 
long we are in the fight, concerns about tying the hands of our 
generals, concerns about--usually, an authorization is asked 
for by the Congress to expand the President's authority and the 
military's powers rather than restrict them. I cannot support 
this authorization as presented by the administration.
    The authorization I would like to see--and I would like to 
get your opinion--would be an authorization to degrade and 
destroy ISIS wherever they exist.
    Can you tell me whether you would support an authorization 
like that.
    Secretary Kerry. Well, that is in the authorization. There 
is no geographic limit purposefully in order to be able to 
destroy them wherever they exist.
    The President's thinking, which I agree with, with respect 
to the continuation is, ``Look, there is a huge divide in 
Congress.'' We all know that.
    There was an unhappy experience with a prolonged war in 
Iraq that became a war of choice and which didn't, in most 
people's judgment, have to be fought. And people are tired. 
They don't want to go back and do another 14-year military 
excursion. And there is a divide as to sort of, ``How do you 
balance this?''
    So what the President did--I came up and testified on the 
AUMF in December. We listened to both sides of the aisle, where 
some people were resisting the idea of something that is open-
ended, where you are going to be working 14, 15 years from now 
on the same authorization.
    And the President, I think, thoughtfully and appropriately 
said, ``You know what. Congress ought to be able to unite. The 
American people ought to be able to speak with one voice to 
say, `We are going to go out' ''----
    Mr. McCaul. If I can just--it sounds like a political----
    Secretary Kerry [continuing]. `` `We are going to destroy 
and degrade ISIL.' ''
    Mr. McCaul. And I agree it says wherever it exists. But it 
puts all the limitations on our military. And I think all the 
options--options should not be taken off the table. I think 
that is a dangerous precedent. This would restrict the 
President's authority compared to the 2001 AUMF that he has 
current authority under.
    I would like to you ask you--and I appreciate your letter 
of response in the Syrian refugee.
    Secretary Kerry. But, Congressman, can I just say to you 
very quickly the reason for giving--nobody knows who the next 
President is. The next President ought to have the right to be 
able to say, ``I need more,'' ``I want more'' or, ``Let's 
continue it the way it is.'' Nothing is going to stop you from 
doing that. The policy clearly is committed to degrade and 
destroy ISIL.
    Mr. McCaul. We agree with policy. I just don't think you 
can achieve that goal if you put restrictions on the military.
    You were in the Vietnam conflict. We had a micromanaged war 
that I think didn't allow our troops to win that war, and I 
don't want to make the same mistake with ISIS. And I think our 
precipitous withdrawal with that status of forces agreement 
quite frankly created ISIS to some extent.
    Syrian refugee issue. I had a hearing on this. I had the 
FBI testify. We have 500 refugees in this country. But the plan 
of the State Department, as I understand it, is to bring 
thousands more into the country as we are trying to block 
foreign fighters from coming into the United States from 
western Europe and Americans who have traveled.
    The idea of bringing in thousands of Syrian refugees I 
think poses a potential risk to Americans. That was borne out 
not only by Homeland Security officials at my hearing, but the 
FBI made it very clear that they don't have the intelligence 
and the proper databases to properly vet these Syrian refugees 
who would be coming into the United States under your program, 
this federally sanctioned program to bring in refugees.
    I think this raises serious risks and concerns and I think 
rightly so when the FBI is me telling that and agreeing with 
that as well. Can you tell me what your plan is.
    Secretary Kerry. Well, the plan is to engage in what we 
would call super-vetting, I mean, an extraordinary level of 
vetting. And if the FBI is not satisfied, I am quite confident 
that people aren't going to be allowed in.
    So I don't see this as a conflict. I mean, we have amazing 
ways of being able to dig down and dig deep. We are doing it 
now, by the way, with respect to the Syrian opposition that is 
being vetted in order to join up to the training and equip 
program.
    I think we are about, you know, some--well, I am not going 
to put the numbers out here. But there is a disparity between 
the numbers who have signed up and the number of who have 
actually been proved and who have entered the program, and I 
think the same thing will happen.
    Mr. McCaul. Well, and I will close with, when I was in 
Jordan, I saw the refugees. And I agree. Most are mothers and 
children.
    Secretary Kerry. We have been doing this for years now.
    Mr. McCaul. Well, we made some mistakes with Iraq. The 
Iraqis have been prosecuted for being terrorists. But the 
Minister of Interior in security in Jordan told me personally, 
``I don't know who these people are. I don't know who they are 
because I don't have the intelligence to vet them.''
    Secretary Kerry. I think the vetting will reach the 
Security Minister of Jordan and others. And when they weigh in 
accordingly, I don't think you will see those people coming in.
    Mr. McCaul. Okay. Thank you.
    Chairman Royce. Mr. Ted Deutch, ranking member of the 
Middle East Subcommittee
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Secretary, thanks for being here. I also want to extend 
sincere thanks for your service at a really crucial and 
difficult time in our history. Thank you for that.
    I want to talk about Iran and where we stand at the moment. 
I first want to follow up on Mr. Smith's comments from earlier. 
I am grateful for the way that you speak up about the Americans 
who are being held, and I just would implore you to continue to 
turn up the pressure.
    In my case specifically with respect to my constituent 
Robert Levinson, one of two things, it seems, are going to 
happen over the coming months. Either negotiations will succeed 
and there will be some agreement on the nuclear issue or we are 
going to have to figure out how to deal with Iran's other 
despicable behavior when negotiations fall apart. Either way, 
pressure will significantly decrease on Iran to cooperate on 
the case of Mr. Levinson.
    On March 9, Mr. Secretary, Bob Levinson's family will mark 
the 8th anniversary of his disappearance. You will meet your 
Iranian counterparts many times between now and then and now 
and the end of March. And I thank you for raising it, and I 
implore you to continue to do so.
    Now, with respect to where we stand, you asked us not to 
prejudge. I don't think that we need to prejudge, but I think 
it is only fair to be able to comment on media reports about 
where this may be headed, particularly since often--let's be 
honest--a lot of the reports include information that comes 
from the administration. So given that, just a couple of 
points.
    On enrichment, you had said earlier that you came and sat 
before our committee as others suggested the JPOA might not 
work. But, also, if I recall, at that hearing, with respect to 
enrichment, in the JPOA, it referred to a mutually agreed-upon 
level of enrichment, which you suggested might well be zero. It 
is not just actions taken in prior administrations. The U.N. 
seven times in security resolutions suggested that there would 
be no enrichment.
    So the frustration that some have when you look at a deal 
that may ultimately include as many as 6,000 or 7,000 
centrifuges is trying to understand why Iran would need that 
many, since currently there is one nuclear reactor that is 
fueled by Russian fuel. They can't use any of the uranium they 
are enriching to fuel that reactor. There is just some concern 
about how we have gotten to that point. That is number 1.
    Number 2, when you talked about Iranian compliance with the 
JPOA, you said that the IAEA has certified that they have 
complied in every way, but Deputy Secretary Blinken testified 
just last month that there were situations that we believe were 
violations of the JPOA. I would like to know what those were 
and what it says about Iranian intentions for a long-term 
agreement if they are already violating those terms.
    Next, on the issue of PMD, also the IAEA there published 12 
sets of questions about Iran's past work, and Iran has only 
partially tackled one of those issues. Again, as we look toward 
a potential agreement, how can we be assured that Iran will 
comply with it if they are not willing to come clean on what 
they have done in the past?
    I would ask if you can confirm that any deal can only be 
agreed upon if it provides for anytime, anywhere, inspections.
    And, finally, for me and for a lot of us here, most 
importantly, the role of Congress, you had said yesterday on 
the Senate that, of course, we will have a chance to review it 
and we will have a vote because a vote will be necessary to 
ultimately terminate sanctions. That is clear to us. I 
appreciate you saying it.
    If you could speak to Congress's role going forward and 
answer also whether you believe we should start talking now 
whether there is a role for Congress to play in talking about 
what would happen in the event there is a deal and in the event 
that Iran violates the terms of that deal. Would it be helpful 
for Congress to work with the administration to lay out 
specifically what the ramifications would be in that instance?
    Secretary Kerry. Well, Congressman, first of all, I want to 
impress on everybody that I find very helpful and I think the 
administration finds very helpful the discussions with you, 
whether here or in classified session.
    And we are not at all suggesting that, by raising a 
question or making suggestions as you just had about one 
potential complication or suspension to negotiate these other 
things--they are all fair questions and they help us. Actually, 
we factor that in and it helps us in terms of thinking about 
every aspect of the negotiation.
    That is different from actually condemning the deal and 
sort of turning off and saying, ``There is no way this is going 
to work'' or, ``It is a bad deal. You are about to make a bad 
deal'' when you don't really have all of the components of the 
deal in front of you and we don't even because it is not yet 
resolved.
    So that is the distinction I am trying to draw. But we 
welcome this kind of a question. And I would simply quickly say 
to you the U.N. Security Council resolution--and I went back 
and reread it, in fact, in the middle of the negotiations these 
last few days.
    Paragraph 37 of the 1929 resolution, in fact, has not been 
lived up to. It has not been met, and it is not relevant to 
what we are doing right now, to be honest with you, because it 
talked about suspension of enrichment.
    It didn't say they can't enrich. It talked about 
suspension. And then the negotiations would decide what is or 
isn't allowed, as long as it meets the terms of the 
Nonproliferation Treaty and so forth. So that is the 
negotiation we are in right now.
    Now, Wendy Sherman in her discussion with you, I know did 
not raise any violations because there haven't been any 
violations. We have sanctioned individual companies--during the 
course of this period of time with the interim agreement, we 
have actually imposed more sanctions. We have sanctioned 
individuals. We have sanctioned companies. And there has been 
an ongoing effort to hold the sanctions regime accountable.
    The final thing I would say to you is Iran already operates 
light water reactors at Bushehr, fueled by the Russians, Russia 
design. And these reactors pose less of a risk for the 
potential of civilian power production and other types of 
reactors that are prohibited by the U.N. Security Council.
    So what they are doing now is not, in fact, a violation. 
And we have been clear in defining that the purpose of the 
negotiations we're in now with Iran is to ensure that their 
nuclear program is exclusively for civilian purposes. That is 
the key here. They can have a civilian peaceful program.
    So when you get into the number of centrifuges and this and 
that--if you have a civilian power plant that is producing 
power legitimately and not a threat to proliferation, you can 
have as many as 190,000 or more centrifuges.
    There are millions of centrifuges involved ultimately in 
power plants that are producing power. So the key here is: Is 
this a peaceful program? And are the measures in place capable 
of making sure you know it is peaceful? That is the standard we 
are trying to apply.
    Chairman Royce. We now go to Judge Ted Poe, of Texas, 
chairman of the Terrorism and Nonproliferation subcommittee.
    Mr. Poe. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here.
    I will start with ISIS. I think it is important that we 
define different participants in this war with ISIS. I think it 
is important that we define who the enemy is, whether it is 
ISIS or IS or ISIL or Daesh, as it is now being called. I 
define them as radical Islamic terrorists. I want to know what 
you define them as.
    The second question is, we need to define who the victims 
are that these folks are killing. The victims have been people 
who, in the name of free press, criticize them, Jews, 
Christians, and other Muslims who don't agree with their idea 
of Islam.
    And the third is we need to define why they do this. What 
is the cause of this reign of terror throughout the world? My 
opinion is they do this in the name of their radical Islamic 
religious beliefs.
    And then the plan. What is the plan? We don't have time for 
you and I to discuss what the plan is to defeat them.
    So how would you define the enemy? Would you define them as 
Islamic radical terrorists?
    Secretary Kerry. Well, I think many of them are. Not all of 
them, but many of them are. And certainly the top leadership, 
al-Baghdadi and folks around him, are formulating their concept 
of the caliphate--of the caliphate on the basis of their 
interpretation of Islam.
    Mr. Poe. Okay.
    Secretary Kerry. So----
    Mr. Poe. So some of them are.
    Secretary Kerry. To the degree they are establishing a 
caliphate and hanging some of their notions of organization and 
discipline and battle based on that, there is a component of it 
that is a distorted sense of Islam. Sure
    Mr. Poe. Who are the victims?
    Secretary Kerry. Well, but let me also point out----
    Mr. Poe. I am sorry. I want to get an answer to all three 
questions.
    Secretary Kerry. No, I am going to give you an answer.
    But also there are a lot of criminals and thugs and 
adventurers and thrill seekers and--involved in this. There is 
a kind of criminal anarchy in all of it, notwithstanding 
whatever basis they want to claim with respect to Islam. And it 
is important in coming at this that you not empower them 
through the language we use to be able to make the argument to 
their people that in fact we are at war with Islam, and they 
are building that up as a recruitment tool, and we create more 
of our own problem. I think that is what people are trying to 
be sensitive to here.
    Now, when you get into the deep analysis, yes, there are 
clearly a very distorted sense of radical extreme Islam being 
put forward.
    The victims are anybody who stands in their way or people 
who are different or who have different beliefs. They can be 
Christians. They can be Yazidis. They can be officers and 
police officers who are Sunni and trying to stand up for their 
village or their town in Mosul. I mean, they go out and kill 
the mayor. They kill young kids. They will kill, you know, 
people they think are apostates. So----
    Mr. Poe. So define the third question----
    Secretary Kerry [continuing]. Very complicated, and the----
    Mr. Poe. Answer the third question.
    Secretary Kerry [continuing]. Third piece is, why do they 
do this? They do this for power and for the extension of their 
leaders for their misguided notion of their caliphate and their 
desire to be the power that is defining not only their version 
of Islam but to have the power within that region to run the 
show.
    Mr. Poe. Reclaiming my time. I had another question on a 
different issue. Twitter. Under Federal law, it is against the 
law to aid or assist or provide services to a foreign terrorist 
organization, as you know. Foreign terrorist organization--
ISIL, ISIS--uses Twitter to recruit, to raise money, and to 
spread its hate propaganda throughout the world. And myself and 
others have asked Twitter to pull down these sites because they 
are a foreign terrorist organization that is being allowed to 
do this. Twitter pulls down pornography sites, child 
pornography sites, without a problem.
    My question to you, Secretary Kerry, 4 years ago, the White 
House said they were going to come up with a plan to deal with 
this issue. I have seen no plan yet--2011--but be that as it 
may, what is your position, the State Department's position, on 
Twitter allowing foreign terrorist organizations to use an 
American company to recruit, to raise money, and to spread 
their propaganda? We would have never allowed New York Times to 
take out an ad for the Nazis to recruit during World War II.
    Secretary Kerry. Well, we don't----
    Mr. Poe. Can I get an answer, Mr. Chairman?
    Chairman Royce. Well, I am anticipating one.
    Secretary Kerry. The answer very briefly--the answer is we 
don't like it, and there is a lot of discussion taking place 
with all of the entities of social media to try to figure out 
how to minimize it.
    Now, we have made some progress. You haven't seen the 
videos that have been posted, and there are a lot of things 
that are being reduced. So some progress is being made.
    And the final comment I want to make, I neglected to say 
this. When you ask who the victims are, the primary most 
significant number of victims are Muslims, and people really 
need to focus on that.
    Chairman Royce. We are going to go to Mr. Brian Higgins of 
New York.
    Mr. Higgins. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary.
    Just on the Iran issue. Centrifuges, uranium enrichment, 
breakout capability. Ten years ago, Iran had about 164 
operational centrifuges, which are the machines which mix 
uranium at supersonic speeds to create weapons-grade material. 
Today there is over 19,000, and it is suggested that 9,400 of 
them are operational centrifuges to enrich uranium.
    How important is the number of centrifuges to the 
negotiations ongoing right now?
    Secretary Kerry. It is important.
    Mr. Higgins. Do we accept that Iran should have thousands 
of operational centrifuges to enrich uranium for peaceful 
purposes?
    Secretary Kerry. Well, that question is so general that it 
doesn't allow for the question of, you know, what is their 
production level, what are they doing, et cetera, et cetera. I 
am not going to get into the numbers at this point in time 
except to say to you we have established a critical measurement 
of needing a 1-year breakout time for a reasonable period of 
time and an ability to be able to limit the impact of whatever 
is produced by whatever centrifuges are running. In other 
words, you have to look at, what is the stockpile? What happens 
to the spent fuel? What happens to other things? So there is a 
larger equation of how you measure what is happening, but the 
answer is it is part of that equation, and we are very much 
focused on it.
    Mr. Higgins. Mr. Secretary, let me ask you this. You know, 
we are sitting at the table with the Iranians negotiating, 
obviously, a very, very important issue relative to the nuclear 
program, relative to their nuclear intentions, not only to the 
region but to the world. And concurrently, we are involved in 
Iraq, Syria. And the Iranian influence there, despite the 
Americans believing that we have a friendly government in Iraq, 
it seems as though the loyalties of the Iraqi Government are 
more closely aligned with Iran and the Quds forces commander, 
Qasem Soleimani. The Shiite militias have been successful of 
late against the Islamic State, but the concern is they have a 
bad history with us.
    You know, we authorized, you know, the President's request 
for military force in Iraq. And we are going to be right in the 
midst of fighters who are experienced but also have a 
contemporary history of shooting our guys, essentially. So, 
while we are both fighting ISIS, there must be concerns on the 
part of the American military about how do you influence the 
Shiite militias who will also be there fighting, you know, the 
same target?
    Secretary Kerry. Well, we are greatly concerned about some 
of the behavior of some of the militia, and that has been 
raised very, very directly with Prime Minister Abadi. We have 
raised it with the Iranians. It is a component of the violence 
on the ground and has created some challenges with respect to 
the Sunni participation and some of the changes in reforms we 
are looking for, but by and large, writ large, Iranian 
engagement with respect to Iraq, while it is present in the 
form of Soleimani, as you say, and even some people fighting in 
the northern--northeastern corners, the fact is that there was 
a greater direct day-to-day control and problem presented with 
Former Prime Minister Maliki, which is one of the reasons why 
the Army wouldn't stand and fight in Mosul, and Prime Minister 
Abadi is working very hard to--with the oil deal made with 
Erbil, with the movement of weapons to the Peshmerga, with the 
inclusivity toward the Sunni tribes--to really change that 
dynamic. So, yes, Iran has influence. Iran is present. Iran is 
doing things, but I think overall there is a concerted effort 
to focus on the problem of ISIL, and they are focused on that.
    Chairman Royce. We are going to go to Mr. Matt Salmon of 
Arizona, the chairman of the Asia Subcommittee.
    Mr. Salmon. Thank you.
    Mr. Secretary, I would like to ask you about the U.S. 
hostage policy. As you know, Kayla Mueller, a young, 
idealistic, and inspiring Arizona women who traveled to the 
Middle East to help Syrian refugees, was captured and held by 
ISIS terrorists for over 18 months before she was tragically 
killed in their captivity.
    While Kayla is the first American woman captured, held, and 
brutally killed by these terrorist thugs, other Americans have 
suffered this fate, which I hope we can all agree is 
unacceptable.
    Now, recently Kayla's family gave an interview where they 
discussed what they went through over the last 18 months with 
the terrorists seeking a dollar ransom. And then, after the 
administration announced that they had traded five known and 
dangerous terrorists for Sergeant Bergdahl, ISIS changed their 
demands from merely money to the release of a terrorist jailed 
here in the U.S.
    Essentially, once ISIS learned that the U.S. does indeed 
negotiate with terrorists, they demanded more for the life of 
Kayla Mueller.
    Of course, it goes without saying that the devastation the 
family felt when they realized President Obama would negotiate 
with terrorists for a soldier that deserted his unit but not 
for their daughter.
    Mr. Secretary, I would just like a yes or no answer on 
this, and then you can expound on the next part of the 
question, but were you consulted when the administration 
decided to conduct a prisoner swap for Sergeant Bergdahl, and 
can you just tell me yes or no?
    Secretary Kerry. Yes, I was consulted.
    Mr. Salmon. And now I would like you to expound. Knowing 
what you now know, would you advise the administration to make 
a swap similar to Bergdahl--this Bergdahl deal in the future?
    Secretary Kerry. Bergdahl was a member of the military who 
was being held as a prisoner of a conflict. And as we draw down 
in any conflict, there are always historically exchanges of 
prisoners with respect to a conflict. He was not a hostage.
    Hostages are people who are civilians or individuals who 
are taken for the specific purpose of ransom, and we do not 
negotiate for ransom. That is our policy. And you can see the 
tracking----
    Mr. Salmon. And I am not disputing that.
    Secretary Kerry. But look at the evidence of other 
countries who have paid. I am not going to name them here, but 
they have had significant increases of their citizens being 
taken hostage, and there is just a revolving fund of money 
coming in from $5 million to $10 million to significant sums 
and it funds terrorism. So that is--it is a hard distinction. 
Kayla Mueller's--Kayla, just an extraordinary young woman.
    Mr. Salmon. And I am sure you can understand why it is 
complicated, difficult for her parents to understand that 
distinction.
    Secretary Kerry. It is very hard, and we have talked to her 
parents. And our people were--have reached out. I won't tell 
you that every contact with one agency or another met with the 
response that perhaps it should have or it wasn't handled as 
effectively as it might be, which is why President Obama has 
instructed a review of that process and we have engaged in 
ourselves in the State Department. And we are doing a lot to 
deal with that, but the bottom line is ISIL is responsible for 
her death. We don't even know precisely how she died, but ISIL 
is responsible.
    Mr. Salmon. Thank you, Mr. Secretary.
    I totally agree that ISIL is responsible, but my--the 
distinction that has been made is something that I think is 
confusing to a lot of people. And it doesn't seem like it was 
very confusing to the ISIL folks because they ended up upping 
the ante with her negotiations after this happened.
    Secretary Kerry. Actually, our interpretation is that they 
were never serious. The amounts of money that they put on 
Americans indicated an absolute--it was unfortunately not a 
serious deal for them, but we don't pay money. We never have, 
and we are not going to start.
    Mr. Salmon. I am not saying we should, but I do believe 
that the whole Bergdahl swap sent a message. This distinction 
you have talked about seems to me a distinction without a 
significant difference. And I think that it did send a message 
that we do negotiate with terrorists, and I yield back the 
balance of my time.
    Chairman Royce. I thank the gentleman for yielding.
    We go to Mr. David Cicilline of Rhode Island.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your extraordinary work in 
promoting U.S. foreign policy all around the world and during 
very challenging times. So I think we are all grateful for your 
service.
    I have a series of questions that I will submit for the 
record and ask for a written response related to Armenia and 
Nagorno-Karabakh; our relationship with Portugal and the 
Azores; international family planning; U.N. peacekeeping; the 
continued fight against Ebola in West Africa; and 100th 
Commemoration of the Armenian Genocide. And I look forward to 
your responses on those issues.
    But I want to begin today to speak about the atrocities 
that we continue to hear reported in Syria, particularly 
torture and murder and even some claims of the use of chemical 
weapons. Regardless of the person responsible for these crimes, 
I think most would agree that they warrant immediate attention 
by the international community.
    I know Russia and China have impeded our efforts at the 
United Nations, and I am just wondering what we are doing to 
help push a referral to the International Criminal Court or 
other things to really hold those individuals accountable for 
the atrocities that are occurring--happening in Syria, and, 
secondly, if you would speak to--as we consider the President's 
request for the authorization of the use of military force, 
many of us are very concerned about what our partners in the 
region are doing, what the Europeans are doing, should our 
Middle Eastern and Gulf allies, such as Saudi Arabia, Jordan, 
the UAE, and Egypt be playing a more prominent role. Do they 
have the capacity to play a more prominent role? There has been 
a sort of universal consensus that this is going to require air 
operations and ground troops and a commitment not to use U.S. 
ground troops, but what is the capacity of our partners in the 
region? Are they--I know we are heard a lot about 60 countries, 
but what are they actually doing? What do they have the 
capacity to do, and how much of this will necessarily fall on 
the United States to defeat and--degrade and defeat ISIL or 
ISIS?
    Secretary Kerry. Thank you, Congressman. Good questions.
    On the ICC in Syria, I don't have any doubt in my mind that 
Bashar al-Assad has engaged in some war crimes in the course of 
this. I mean, the use of gas against your own citizens is a war 
crime. The use of barrel bombs indiscriminately against women 
and children. There are other examples. Starvation is a tool of 
war--is a war crime. So there are things that have amounted to 
it.
    Now, mounting that kind of a case, putting together the 
evidence in the middle of the war is always very complicated 
No. 1, and, No. 2, there are other policy choices that are 
complicated about the actual lodging of a complaint, et cetera, 
and moving forward because it can greatly affect the options 
that are then available to you in terms of negotiating and 
coming up with a political solution. So there hasn't been at 
this point in time--I think there is evidence being collected. 
People are examining. You saw the photographs I think of the 
10,000 or so people alleged to have been tortured. Many of 
those issues, by the way, there is not a clarity about the 
evidence as to who ordered it or who did it, et cetera, et 
cetera. So I don't think cases are ripe even though there is a 
lot of evidence.
    And for the moment, I think the appropriate entities are 
busy gathering and evaluating that evidence. I think some of it 
has already been referred to The Hague, but I am not sure 
exactly what specifically.
    With respect to our allies in the coalition, we have said 
from day one that there are many different things that each 
country in the coalition can do. Some countries don't have the 
ability to contribute air power or to engage with troops, but 
they have an ability to contribute with respect to humanitarian 
assistance. Or Japan, for instance, is doing humanitarian 
assistance. They have the ability to be able to provide 
assistance in turning off the flow of money by putting their 
financial systems and banking systems at the disposal of the 
effort to cut off the foreign financing. Almost every country 
has an ability to be able to contribute to try to reduce the 
flow of foreign fighters going in. So airport practices, police 
practices, exchange of information, intelligence sharing. All 
of these are part of the protocol that General Allen and Brett 
McGurk are coordinating with respect to this global coalition. 
And then, of course, there is the effort to change the 
messaging to counter ISIS' message and discredit it in the 
religious community. And that effort is a very, very 
significant part of this, and all of those 60 nations are 
taking part in that one way or the other through the social 
media, through conferences, by helping to organize their Muslim 
communities to have the mullahs, imams, clerics, Grand Muftis, 
others all speak out. Saudi Arabian Grand Mufti, the Egyptian 
Grand Mufti have spoken very clearly condemning ISIL as an 
organ of Satan, as a criminal enterprise that represents 
nothing to do with Islam. So there is an enormous amount of 
global enterprise now being focused on the effort of ISIL. But 
in the end, those who are in Syria, I think we all understand, 
are going to have to be taken own directly on the ground in 
addition to the air power. And a number of countries in the 
region have spoken of their willingness under the right 
circumstances to commit troops to that effort. And that is an 
ongoing policy debate that is taking place even now.
    Chairman Royce. We are going to Mr. Darrell Issa of 
California.
    Mr. Issa. Thank you.
    Thank you, Mr. Secretary, and thank you for your service 
and for being in many ways one of the leading characters on 
foreign policy long before you came to this job.
    Today we are primarily talking, obviously, about budget 
requests, and I think I will try to stick mostly to that, but I 
wanted to first of all thank you for the work that is being 
done on the 123 Agreements, South Korea and China. I am very 
supportive of our partner in South Korea and in trying to meet 
their expectations. Obviously, we have great concerns about any 
agreement with a country like China, who has a record of not 
keeping those agreements. And we will be looking at it, and I 
appreciate your continued work on it and the Assistant 
Secretary's work.
    Additionally, as we talked about just a little bit in the 
back, the Embassy security around the world and the rate at 
which the State Department has slowed in the construction of 
new Embassies and consulates, which, from my observation both 
here and in another committee, seems to have more to do with a 
return to one-off designs rather than the standard build that 
was working so well for many years.
    Can you briefly tell us--can you--can you say that the new 
system is going to deliver the same speed and cost that the 
other had did because, quite frankly, so far, the Embassies 
being built, including the Embassy in Beirut that I am deeply 
concerned about, appear to be, again, one-off designs that have 
more architectural uniqueness to them than they should. 
Obviously, the moat that surrounds the unique design in London 
might be very British, but it concerns us at a cost of $1.2 
billion.
    So do you have a commitment to at least use a standard 
design whenever possible?
    Secretary Kerry. I think whenever possible, we are. But it 
is not always possible just because of the setbacks, the 
locations where they are today.And, you know, part of this, 
Congressman, is probably best discussed in a classified session 
simply because if I start getting specific, then we get in--you 
know, it sort of telegraphs----
    Mr. Issa. Mr. Secretary, I will stop over anytime a you 
will have me.
    Secretary Kerry. Yeah. Well, I think it is worth having you 
come over and spending a minute with Under Secretary Pat 
Kennedy and going through this because a lot of thought has 
gone into it. Some of it driven by the ARB report and the 
requirements to try to deal with that. We--you all have been 
terrific in helping us to be able to, you know, upgrade. We 
have got a massive upgrade effort going on now. So--and it is 
costly. I think it is about $2.2 billion going into the 
security.
    Mr. Issa. Right. And I appreciate that, and, you know, one 
of my major concerns, and we will follow up in a more 
appropriate environment, but one of my major concerns is the 
rate at which new construction is occurring has clearly slowed 
over the last few years. And in some of the areas of greatest 
uncertainty as to whether or not they can keep--the countries 
can keep their commitments to us in Africa and in the Middle 
East are areas that I would hope that we can try to focus some 
of the funds on moving those forward.
    Let me switch to one nearly a billion dollar activity. We 
have been working--our Oversight committee here at Foreign 
Affairs has been working on the Foreign Affairs Security 
Training Center question. This 900-or-so-million-dollar program 
has had a lot of questions, and, quite frankly, we are short 
some answers. And I would ask unanimous consent that the 
exchange between our Oversight counsel and the Office of 
Management and Budget be placed in the record.
    Mr. Secretary, I will give you this, but what I would ask 
you to do is realize that we have been waiting for the State 
Department to give us the details, whether done by OMB or done 
by State, the details of how the cost estimates were arrived at 
for the $900 million. And when they stripped out the actual 
accommodations, assuming they were going to go to hotel rooms 
that just don't happen to exist at Fort Pickett, how they got 
the other numbers, we were told to go to OMB. Our staff went to 
Office Management and Budget, and they got told to come back to 
you, effectively.
    Will you commit to us today to provide the source 
information and calculations because, as it exists right now, I 
will be very quick, we believe that the existing Georgia 
facility would be a fraction of the cost and would deliver to 
the men and women in the State Department training in a matter 
of weeks or months, where the other facility is going to take 
years and cost at least that $900 million estimate.
    Secretary Kerry. Well, Congressman, we--I am happy to work 
through with you and have our guys work through with you the 
numbers on this. I have talked about it with them the other 
day, and the Department of State and the GSA looked at some 70 
different properties before settling on--including very, very 
deep analysis of the Federal Law Enforcement Training Center in 
Glynco, Georgia. You know that.
    Mr. Issa. Yes.
    Secretary Kerry. And on, you know, the conclusion of that 
effort looking at the site reaffirmed that Fort Pickett was 
really the more suitable place for it, and that, you know, 
resulted in an initial layout of some money, but let me just 
say to you, just in--I will give you a cost comparison. The 
Department estimated----
    Chairman Royce. Might I suggest this, Mr. Secretary. Might 
I suggest that we do that in writing, and we go now--we 
understand the point.
    Secretary Kerry. Bottom line, I will just say to you, is 
there actually are huge cost savings in going to Fort Pickett 
over flying people----
    Mr. Issa. And thank you, Mr. Secretary.
    Mr. Chairman, the only thing I did want a commitment on was 
that we would get the source material so that we could evaluate 
it fairly, the GAO could evaluate it fairly.
    Chairman Royce. That was the question.
    Secretary Kerry. I don't know exactly what you mean by the 
source----
    Mr. Issa. The source material. In other words, any and all 
cost analysis done by OMB or on behalf of the State Department. 
That is all we are really asking for is to see what you saw.
    Secretary Kerry. What I can commit to you is that they will 
sit down with you and go through the cost analysis.
    Also, on London, by the way, with the moat, et cetera, 
there was no outlay of tax dollars whatsoever for that because 
it was paid for entirely out of the sale of the other Embassy 
building.
    Chairman Royce. We go now to Mr. Keating of Massachusetts, 
ranking member of the Terrorism and Nonproliferation committee.
    Mr. Keating. Thank you, Mr. Chairman, and I want to thank 
the Secretary. I know firsthand by his absence from 
Massachusetts how hard he has been working throughout the 
world, and how personally he has sacrificed for our country, 
and I want to thank you for that.
    I just want to follow up on an area of concern to me 
personally that we have been working on in this committee, and 
you did it briefly with an exchange with Chairman Royce 
regarding the U.S. Broadcasting Board of Governors, which I 
think is one of the more important areas we should stress. I am 
hearing that time and time again from leaders from other 
European countries that have come to see me, and without 
exception, particularly in theEastern European area, they are 
saying how one-sided it seems to them; how they are worried 
about Russia powering up their propaganda, and they are also 
concerned about the deployment of the Internet in terms of 
terrorist organizations. So, also, similarly with the Center 
for Strategic Counterterrorism Communications and working 
online with forums to build a better counternarrative, how that 
could compliment these efforts as well.
    So I would just like to ask the Secretary what plans they 
have. I know that they are undertaken already, but what do you 
envision in that regard and what the prospects of success and 
sort of ramping up our involvement with the Broadcasting Board 
of Governors and with the Strategic Center for Counterterrorism 
Communications? It is an important area that I think is cost-
effective for our funding and something that can be very 
helpful and send the right message to our allies in Europe as 
well.
    Secretary Kerry. You are absolutely correct. It does, and I 
think the amount--I think we have got about 300--if I recall, 
it is some $390 million that is going to go into--there are two 
separate initiatives here. One is the Counterterrorism 
Partnership Fund. The other is the Center for Strategic 
Communications. Rick Stengel, our Under Secretary is down at 
CENTCOM today working with them on this whole strategy for how 
we are going to be able to respond more effectively and deal--
not just with Russia's massive propaganda but also ISIL and 
other entities. There is a real battle for the flow and control 
of information. So we are now putting together programs that 
will work with all of our Embassies, with local partners. I 
will give you an example. The UAE is setting up a center, which 
we are taking part in, which will have various other countries 
represented that are going to manage responding realtime on the 
social media. It is an brandnew effort. It will further 
regional and global collaboration to try to counter violent 
extremism, and we are expanding this effort in line with the 
discussions we just had at the White House Summit on Violent 
Extremism. We have just about appointed a special envoy and 
coordinator who will reinvigorate the original vision of how we 
take this mandate for information management and bring the 
communities, various communities around the United States, 
elsewhere, together to coordinate them in their ability--I am 
talking about specifically identifiable either Islamic or, you 
know, regional entities that have an ability to have an impact 
on those communities and coordinate their messaging. And we are 
still in the process of sort of laying down the entire plan of 
action, but in large this will be a brandnew coordinated 
communications effort, both through traditional media and 
social media, in order to maximize America's output of 
information and countering to the lies, the seductions, the 
propaganda, everything that takes place in all of those fora 
today.
    Mr. Keating. Yeah. Along the same lines, there was a lot of 
attention recently to young girls being recruited and enticed 
into terrorist activity. This is no news to you. No news to 
this committee because we have had committee hearings on this. 
But it is a real issue on one end, and it is also offers, 
though, I think a concentration on young girls and women. It 
offers us an opportunity on the other end to put resources into 
that--not only educating young girls but also empowering women 
to have a role.
    Could you just comment briefly----
    Chairman Royce. Well, that is a good point, but I think we 
are going to have to go to Mr. Tom Marino of Pennsylvania, and 
the Secretary must depart for another committee at 1 p.m. So, 
in order to get as many members before then, we will go to 3 
minutes for each member. All watch the clock, please.
    Mr. Marino.
    Mr. Marino. Thank you, chairman.
    Good afternoon, Mr. Secretary.
    Mr. Secretary, I want to talk about Yemen for a moment. 
Since 2006, we have given them about $500 million in military 
assistance. Now, since we have had the overthrow that we have 
seen, there is money slated for Yemen. I am just going to make 
an assumption here that that is not going to happen, given the 
circumstances there, but can you address the issue as to what 
you--what we know about the weapons--the U.S. weapons that were 
there? Where are they? Who has them? Would you comment on that, 
please?
    Secretary Kerry. Sure. Very few weapons were active 
weapons. Weapons that were functional fell in--or were 
transferred into the hands of any Houthi. We had a Marine--
significant Marine presence and a significant security presence 
there to protect our diplomatic mission, and prior to departing 
from the Embassy and leaving to go to the airport, those 
weapons were destroyed or dismantled. The firing pins taken 
out, firing bolts. Different things were done in order to make 
them nonfunctional.
    Mr. Marino. Was part of that--were the weapons instructed 
to be handed over to the--those that overthrew the government 
or is that----
    Secretary Kerry. No.
    Mr. Marino [continuing]. Just a media fictitious statement.
    Secretary Kerry. No. They were not. Some weapons were left 
in the hands of the local guards and local personnel who worked 
with us in order to be able for their security and for them to 
be able to defend themselves and go back to their--and go back 
into town from the airport.
    Mr. Marino. Mr. Secretary, I have 1 minute left.
    Secretary Kerry. Let me just say very quickly. At the 
airport, there were few weapons that were turned over at that 
point in time, but believe me, nothing that they didn't have 
and hundreds and even thousands of numbers----
    Mr. Marino. Okay.
    Secretary Kerry [continuing]. In other forms, but those 
weapons were critical to our people in the event that they ran 
into resistance at the airport and had to in fact fight their 
way or cover their way to go back.
    Mr. Marino. All right. The President stated that Yemen was 
a success, was an example of--quintessential example of success 
and what we have accomplished. What did we miss? How did we go 
from this is an example of the success that we are fighting 
terrorism to being overthrown just like that and run out of the 
country?
    Secretary Kerry. Well, very easy. Very simple answer, and 
it shouldn't be extrapolated to mean something that it doesn't.
    The President was talking about how the work we had done 
with the existing government and the transfer to Hadi from 
Saleh--from Saleh had in fact provided us with a continuum of 
our platform to be able to take on al-Qaeda. So it was an 
example of the way in which we were using a presence and a 
platform, and we were attacking al-Qaeda. We were not engaged 
between Houthi and Hadi's forces and other people. Then that 
changed, obviously, internally in the politics, because Saleh 
was creating problems by remaining in the country, joining up 
with the Houthi, challenging Hadi. Those are things we were not 
there to be somehow able to stop through the counterterrorism 
program.
    Chairman Royce. I am afraid we are going to have to go to 
Mr. Alan Grayson from Florida.
    Mr. Grayson. Oh, don't be afraid of that, please. I 
wouldn't want that on your conscience, Mr. Chairman.
    Mr. Secretary----
    Chairman Royce. I thought I spoke for all of us.
    Mr. Grayson. Mr. Secretary, the Authorization for the Use 
of Military Force offered by the White House says in section 
2(c): The authority granted in subsection (a) does not 
authorize the use of the United States Armed Forces in enduring 
offensive ground combat operations.
    In that context, Mr. Secretary, what does ``enduring'' 
mean?
    Secretary Kerry. Well, ``enduring'' means Iraq, 
Afghanistan, long-term ground operations. You could, obviously, 
define it in terms of months not years, but it is a distinction 
between someone engaged in a rescue mission or going in on a, 
you know, advise-and-assist program to help people understand 
how to do fire control over a 1- or 2- or 3-day period or 
something. I mean, there are all kinds of examples that could 
be defined, but ``enduring'' means we are not beginning the 
process or committing to a process of a long-term combat troop-
on-the-ground offensive engagement in a war.
    Mr. Grayson. Okay. So 3 days is not enduring, from what you 
said; 10 years is enduring.
    Secretary Kerry. Well, I am not going to play with one----
    Mr. Grayson. Well, I think maybe we should. What about 2 
months?
    Secretary Kerry. Depends on what somebody is asked to do, 
but it is a noncombat role. Noncombat engagement.
    Mr. Grayson. Would 2 months be enduring?
    Secretary Kerry. It depends on what they are being asked to 
do and what they were doing.
    Mr. Grayson. Two years?
    Secretary Kerry. Again, are you talking about a combat 
troop in combat operations----
    Mr. Grayson. Offensive ground combat operations.
    Secretary Kerry. Well, we are not talking about--we are not 
doing offensive ground combat operations.
    Mr. Grayson. I am asking whether this authorizes that.
    Secretary Kerry. No, it doesn't.
    Mr. Grayson. Okay. Good let me ask you another question. 
Are there any geographical limitations to this AUMF?
    Secretary Kerry. No.
    Mr. Grayson. For instance--no. Okay. So this would 
authorize military action in Jordan?
    Secretary Kerry. It would authorize action against ISIL 
specifically. And the President had said we will degrade and 
destroy ISIL wherever they are. If it required an action in 
Jordan, it obviously would be in conjunction with the 
Government of Jordan, which is a strong ally, member of the 
coalition, asking for us to do something in a totally 
permissive atmosphere, but the only authorization we would have 
to do it would be if it was against ISIL.
    Mr. Grayson. And also in Libya and in the Sinai and 
wherever else anybody who associates with ISIL might be. In 
fact, you are talking about a world war. Isn't that true?
    Secretary Kerry. No. No. We are not. Absolutely not, and it 
would be incorrect to suggest that mere association would 
permit anybody to do anything under this authorization because, 
under the 2001 AUMF and the 2002 AUMFs, we have clearly defined 
what ``associated'' means, and it means engaged in the fight, 
fighting alongside, or fighting United States and our allies 
directly. So there is----
    Chairman Royce. Other questions and answers can be in 
writing.
    Secretary Kerry [continuing]. Associated means.
    Chairman Royce. We need to go to Mr. Jeff Duncan of South 
Carolina, chair of the Western Hemisphere.
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Secretary, please don't disarm United States Marines 
ever again. That was wrong.
    Does the administration plan to take Cuba off the State 
Sponsor of Terrorism List?
    Secretary Kerry. Only if they meet the standard that is 
required as to whether or not they are in fact a sponsor of 
terror.
    Mr. Duncan. Okay. I am having trouble defining ISIL based 
on some comments today. So could you--because we have an AUMF, 
I will follow up on Mr. Grayson's comments, what is ISIL? 
Define ISIL for me.
    Secretary Kerry. Well, ISIS is self-defining. They are the 
combatants and those who have pledged allegiance to them who 
have formed a caliphate, fly a flag, wear their black uniforms 
and are engaged in a struggle both within Syria and Iraq most 
directly but also in what they call distant provinces as they 
try to establish their caliphate.
    Mr. Duncan. Right. And so you used ISIS, and the AUMF used 
ISIL. What is the difference?
    Secretary Kerry. It is merely their formulated--it is who 
calls what--ISIL--ISIS is the letters used by them to define 
the state versus the Levant, which is the Arab word for the 
``S'' of ISIS?
    Mr. Duncan. Right, which is a territory, and I understand 
that. We talk about that a lot.
    So this AUMF, let's assume that the United States Congress 
passes the President's requested AUMF. What does that mean for 
al-Qaeda? Does that mean the drone strikes continue against al-
Qaeda? Does that mean that our United States intelligence and 
Military Force would be applied to al-Qaeda or not?
    Secretary Kerry. Absolutely. Al-Qaeda is authorized under 
the 2001 AUMF. And that is continuing, and it is our, we 
believe, entirely legally and practically legitimate argument 
that ISIS was al-Qaeda in Iraq for about 11 years; and only by 
changing their name did they assume this new identity. But they 
are, in fact, al-Qaeda too. And we have proceeded against them 
based on that authorization, but the President has felt--and I 
think Congress has felt--it would be appropriate to now have a 
new authorization to demonstrate the clarity with which we are 
prepared to go after ISIS, Daesh, as I preferred to call it, 
and continue the battle with al-Qaeda.
    Mr. Duncan. And, in the limited amounted of time, I think 
we have got look at foreign fighter flow to and from theater, 
intelligence sharing, the damage that was done by Snowden. We 
saw the Brussels shooter that shot up the Jewish museum back in 
late May, early June. Germany knew about it, failed to share 
the information. I think that is critical. You touched on that 
a little bit. We need to look at the Visa Waiver Program, the 
Schengen region, working with our allies within Europe, and I 
believe that ISIS is Islamic jihadist, fundamentalist, and 
radical terrorists, so----
    Chairman Royce. And we need to go to Mr. Alan Lowenthal of 
California. Thank you.
    Mr. Lowenthal. Thank you, Mr. Chair, and also Ranking 
Member Engel, and Secretary Kerry.
    First, I want to thank you for being here--I was going to 
say this morning--but this afternoon. And I want to thank you 
personally for your recent appointment of Randy Berry as the 
Special Envoy for LGBT Rights in the Bureau of Democracy, Human 
Rights and Labor. This is an important, I think, and critical 
step in protecting the human rights of LGBT individuals. 
Senator Markey and myself in both Houses had introduced 
legislation that would have the same goal, but you stepped 
forward before this legislation even moved forward. I just look 
forward to seeing you and also Special Envoy Berry this week.
    But I have to--I want to ask some very specific questions--
maybe you can just answer later on--about which I am very 
positive, about the giving of the $1 billion for Central 
America. And you talked about how in Central America--maybe you 
can answer these--I will state them--in writing, and I will 
submit them this writing--the real lack of educational 
opportunities, the violence, the lack of sufficient investment, 
and the corruption, have been part of the root causes that have 
allowed for the migration to the United States.
    My question is, how will this new policy that we are doing 
really reduce poverty, corruption, and enhance security? How is 
it different from what we have done before? Are we going to 
look at some very specific purposes? We hear all along 
throughout the world that we are going to reduce corruption. I 
would really like to know how you see what we are doing as 
really aiding in this. And also, in Guatemala, Honduras, and El 
Salvador, are they going to raise the revenue to help to do 
this? Are they going to introduce and actually collect 
additional revenues or taxes to really help themselves also? Or 
what does this mean in terms of our ongoing relationship with--
--
    Secretary Kerry. Well it is a really terrific question, 
Congressman Lowenthal, and I appreciate it very, very much 
because you are absolutely right. Anybody that--and I used to 
be chair of the Western Hemisphere Subcommittee for 30 years in 
the Senate. And I remember working on Plan Colombia and the big 
debate; are we going to put $1 billion into this? Is it going 
to be meaningful, and so forth?
    If we just did it the way we used to do some of this stuff, 
your skepticism would be entirely applicable and appropriate. 
But we are not. We have learned a lot about the delivery of aid 
and assistance, about oversight, follow up, mentoring, 
engagement. And I think Raj Shah began an effort as 
Administrator and AID has been transforming. Part of this came, 
by the way, and give credit where credit is due, the MCC, which 
came about during the Bush administration. The Millennium 
Challenge Goal sort of taught people to say, maybe there are 
some metrics you can put in place more effectively----
    Chairman Royce. Mr. Secretary, if we could lay that out 
maybe in a written answer----
    Secretary Kerry. Sure. But I will just end quickly by 
telling you that are three targets: One is enhanced security. 
We think we can track that, do police, do other work. Two, is 
direct economic assistance, promote trade in ways we know work, 
and provide more employment, et cetera. And three, is improved 
governance itself, and that is by being deeply engaged in 
creating the transparency and accountability measures necessary 
so you are getting the changes that you need.
    Mr. Lowenthal. Thank you. I look forward to your response.
    Chairman Royce. Mr. Mo Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Secretary, for sharing your 
insight with us here today. I am going to focus on the 
Authorization for Use of Military Force against the Islamic 
State of Iraq and the Levant. And as I understand it--and I 
think you have confirmed this--there are no geographic 
limitations in the force authorization sought by the President. 
Is that a fair statement?
    Secretary Kerry. That is a fair statement.
    Mr. Brooks. And there are other limitations, though, for 
example, enduring ground troops, time limitations, and also who 
the target can be. And as a I understand the target, the target 
of this military force is ``the Islamic State of Iraq and the 
Levant,'' or under section 5, associated persons or forces who 
are defined as ``individuals and organizations fighting for, on 
behalf of, or alongside ISIL, or any closely related successor 
entity in hostilities against the United States or its 
coalition partners.''
    In that vein, there is a February 16, 2015, Associated 
Press article that says, ``Militants in several countries, 
including Libya, Egypt, Algeria, Yemen, and Saudi Arabia, have 
pledged allegiance to Islamic State leader Abu Bakr al-
Baghdadi.'' And as we have heard from other sources, we have 
got Syria, Iraq, Tunisia, Jordan, Sinai, a myriad of other 
potential countries. Is it fair to say that this authorization 
sought by the President does allow the use of United States 
Military Forces in any of these countries if the Islamic State 
or its associated persons or forces are there?
    Secretary Kerry. No, Congressman. A group that simply 
embraces the ideology, pledges allegiance, is not necessarily 
fighting for or alongside or against the United States and our 
associated forces.
    Mr. Brooks. So if they claim that they are doing that, that 
doesn't include them?
    Secretary Kerry. Well, no. It is not a question of claiming 
it. You pledge allegiance. Pledging allegiance to ISIL is not 
necessarily joining the fight.
    Mr. Brooks. So we are going to wait until they kill a bunch 
of people before we attack them. Is that what you are saying 
the administration's position is?
    Secretary Kerry. No. We are going to see whether or not 
they are, in fact, really joined in the fight alongside ISIL.
    Mr. Brooks. Well, aren't we really quibbling--as a matter 
of fact, it is going to be the administration that has to make 
a judgment call, as we all do in the positions that we hold, 
and this administration if it decides that these individuals 
are a part of the Islamic State of Iraq and the Levant or 
associated persons or forces, then they will under this 
resolution use that military force in any geographic area of 
the world. Is that correct?
    Secretary Kerry. If it is ISIS, if it is a group of ISIS 
that is directly threatening the United States of America, and 
we have reason to believe that there is an immediate imminent 
risk, as the President retains the authority today with respect 
to al-Qaeda or any other group, we will take action.
    Mr. Brooks. And that includes individuals in America?
    Secretary Kerry. Excuse me?
    Mr. Brooks. And that includes individuals in America. That 
is any geographic area of the world.
    Secretary Kerry. Well, Congressman, if we have evidence 
that somebody in the United States of America is engaged in 
terrorist activity against the United States, the FBI, the 
Homeland Security, and others will be on him in a nanosecond.
    Chairman Royce. Lois Frankel of Florida.
    Secretary Kerry. We will go through our normal 
constitutional procedures, I assure you.
    Ms. Frankel. Thank you, Mr. Chair.
    Mr. Secretary, pardon my voice, but I want to thank you for 
your service. I truly admire what you have to deal with. And 
earlier, you rightly stated that we live in a very complex 
world. The threats we face are multifaceted, unlike the bipolar 
threat we faced during the cold war. I just call it complexity 
on steroids, and I think you are dealing with a puzzle that 
doesn't have the pieces that match. And I am interested in how 
we manage and balance competing interests in the world, and I 
want to give just examples. So, for example, when we respond to 
Russian aggression threats, especially to our allies in Europe, 
how does that impact our effort to prevent a nuclear Iran or 
reach a political solution with Assad? When we go to eliminate 
ISIL, are we thereby strengthening Assad, who is killing 
hundreds of thousands of his own people? Are we strengthening 
Iran, like we did when we overthrew Saddam Hussein?
    And I know, I think we see Egypt as an ally against ISIL, 
and so the question is why do we continue to withhold financial 
support? So I guess my question is, what is the guiding 
strategy for American foreign policy in this very 
interconnected complex world?
    Secretary Kerry. Well, Congresswoman, it is really good 
question, and I think I have to give you an answer that I think 
you will probably find a little simplistic, and I hope not 
totally unsatisfactory. But it is really a matter of common 
sense. I mean, you have to apply a standard of sort of 
practicality of cause and effect. What is the impact of one 
choice on other choices that you have? That is what the 
President has to do every day in thinking about what you might 
do on any given day about Assad and the impact on Iraq, on 
Iran, on Shia militia, on a host of other things. But there is 
a connection.
    I mean, I want to underscore, you have appropriately put 
your finger on the fact that what we choose to do in one place 
has an impact on things that happen in another place. And, you 
know, if we hadn't responded with the sanctions on Ukraine, if 
we weren't engaged in putting together a coalition about ISIS, 
might Baghdad have fallen? Might there be a civil war? Would 
there be a civil war in Afghanistan today if we hadn't engaged 
and tried to pull a government together instead of having a 
failed election? Everything is connected to the other.
    And to the degree that the United States commits itself to 
lead in these particular challenges, I am absolutely more 
convinced than ever before after 2 years in this job about the 
impact it has when we make that right choice, the impact it has 
on somebody's consideration about another choice they might 
make. What we choose to do effectively with Egypt or with Syria 
or with ISIS will have an impact on Iranian perception, Russian 
perception, Chinese, other perceptions in the world. It is all 
interconnected.
    Chairman Royce. Mr. Secretary, might I suggest that each of 
the remaining members ask one question, one question only, very 
briefly, and then the Secretary could sum up, and we will let 
him depart to his meeting.
    Mr. Meadows, your one question. Is that all right, Mr. 
Secretary?
    Secretary Kerry. You are the chairman. I am at your 
disposal.
    Mr. Meadows. Mr. Secretary, since it is down to one 
question, I have been very keen on not criticizing the ongoing 
negotiations you have with Iran, so I will ask this one 
specific question. For over 2\1/2\ years, Pastor Saeed Abedini 
has been held by Iran. How can we--how can the American people 
expect that they are going to negotiate in good faith when we 
can't get an American citizen, a pastor, that really was thrown 
in the jail----
    Chairman Royce. Okay. We get the gist of that one.
    Now we go to Ms. Tulsi Gabbard. Your question please.
    Ms. Gabbard. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for being here. My question is with regards to the 
AUMF that is before Congress and Syria and wondering as it 
states in the AUMF action against ISIL or associated persons, 
would there be an interpretation of this that would permit the 
U.S. and either individually or working with partners, to 
remove people like Assad or other dictators in other nations as 
it deems that their position of being in power stands in the 
way of defeating ISIL?
    Chairman Royce. Okay.
    Now we go to Mr. Reid Ribble.
    Mr. Ribble. Thank you, Mr. Chairman.
    And, Mr. Secretary, thank you for being here. And my 
question is in relationship to the Democratic Republic of the 
Congo. I know you have been involved related to exit permit 
suspensions. Could you tell us what we could do here in the 
Congress to facilitate the State Department's work to help 
these families gets their children home?
    Chairman Royce. Mr. Brendan Boyle of Pennsylvania.
    Mr. Boyle. Thank you.
    And I waited the 3 hours here to ask this one question 
because I was concerned that this issue might be overlooked 
with the plethora of issues that we have and that you have, 
Secretary Kerry, around the world. One of the great 
achievements of the last 20 years of American foreign policy 
was forging a peace agreement in Northern Ireland. We are now 
15, 16 years on from the Good Friday Agreement, and tensions 
still remain. The House, the Senate, on a bipartisan basis, 
appropriated $2.5 million for the International Fund for 
Ireland, but the State Department is hesitating in releasing 
it.
    Secretary Kerry, would you please commit to me and to 
Congress that these funds will be released by the State 
Department, and the United States will continue to play a 
strong and active role in the Northern Ireland peace situation?
    Chairman Royce. Mr. Lee Zelden of New York, followed by Mr. 
Tom Emmer of Minnesota, and that is it.
    Mr. Zeldin. Thank you, Mr. Chairman.
    Mr. Secretary, there was a letter that was sent from the 
President to Congress with the Authorization for the Use of 
Force. If I could just read a couple of sentences from that 
letter: The authorization I propose would provide the 
flexibility to conduct ground combat operations in other more 
limited circumstances, such as rescue operations involving U.S. 
or coalition personnel or the use of Special Operations Forces 
to take military action against ISIL leadership. It would also 
authorize the use of U.S. forces in situations where ground 
combat operations are not expected or intended, such as 
intelligence collection and sharing, missions to enable kinetic 
strikes, or the provision of operational planning and other 
forms of advice and assistance to partner forces.
    So this is a letter from the President, four or five 
paragraphs that accompanied the request for the Authorization 
for the Use of Force.
    When Congressman Grayson was asking whether or not the 
authorization was providing authorization for offensive 
operations, you had indicated no. Obviously, for several 
months, we have been utilizing strikes from the air, which, you 
know, one could argue are offensive in nature. So I am just 
looking for a little bit more clarity on what, specifically 
from an offensive end, the President is looking to do to defeat 
ISIS; what is the limit of his authority under this 
authorization?
    Chairman Royce. Mr. Emmer.
    Mr. Emmer. Mr. Secretary, thank you again for all your time 
today. Mine is a question I wanted to ask you relates to 
something that really shouldn't be partisan as at all. It is 
about America's economy and the opportunities that it should 
provide for American workers and entrepreneurs.
    You have long been an advocate for trade, long before this 
position, and I would like to ask you to give me some details 
so that our friends on both sides, regardless of political 
persuasion, understand how important the economic opportunities 
presented by Trade Promotion Authority and the possibility of 
getting trade agreements are to our national security.
    Secretary Kerry. So let me try to run those though as fast 
as I can, Mr. Chairman, and I thank you. Saeed Abedini we have 
raised in the most recent discussions, and you ask how we can 
tell they will negotiate in good faith. We are negotiating on 
that very actively right now, and again the proof will be in 
the pudding whether we can achieve something or not achieve 
something. I think it is a little early to make that prediction 
on both accounts, on the release of individuals that we are 
trying to get back, as well as on the nuclear agreement itself.
    Congressman Gabbard, on the subject of the AUMF, associated 
persons removing outside, et cetera, we have to operate under 
international law. This authorization is specifically targeted 
against ISIS itself, and it would be very hard to see how there 
would be any stretch that would fit any legal authority 
whatsoever to direct that.
    There are other legal arguments available to deal with 
President Assad--let me make that clear--not the least of which 
is the fact that, if he were to join in an effort that actively 
engaged with ISIL or we had evidence of that in some way, he 
could be thereby aiding and abetting. I mean, there is an 
extensive argument you could make. But, no, not directly out of 
the AUMF. That would not be anywhere what is envisioned or 
allowed by it.
    With respect to the DRC and exit permit, we have raised 
that issue. I have talked to President Kabila about it 
personally. We have an ongoing effort to try to make some 
progress on that. I am hopeful that we will finally get some 
kind of success.
    These are those difficult internal kinds of negotiations 
that take place. I think this may be even tied to the prospects 
of the potential election that may or may not take place in the 
DRC. So we are waiting to see what happens, but I will continue 
to push it.
    With respect to Congressman Boyle on the subject of 
northern Ireland, we are deeply engaged still. With the 
President's consent, I appointed former Senator Gary Hart to be 
engaged in those talks. He's been very active. There is a $7.5 
million commitment in the existing piece, impact program. And 
the funding is there for 2011, and we have no reason not to be 
releasing it and engaging it. So we will continue to be deeply 
involved in that.
    With respect to Congressman Zeldin on the allowance of 
offensive operations, the limit of authority, I thought we were 
talking about--so this is a good opportunity for clarification.
    I was talking in the context of any potential of American 
ground forces and the limits of the enduring language. But, 
obviously, we are engaged in offensive operations. The air 
power could not be more so. And we are engaged directly, 
needless to say, you know, in training and assisting, and now 
we have the overt Title X training and assist program.
    So those are offensive operations that the United States is 
going to be supporting one way or the other. But we are not 
talking about American ground troops, and there is no 
authorization in here putting American combat ground troops 
into an enduring offensive combat situation. I think that is 
what I really trying to address.
    And, Congressman Emmer, on the economics and TPA, I will 
just close by saying one of the great changes that we face in 
the world today is the enormous increase of much more powerful 
competitive economic entities. Now, none of them yet match the 
size of the United States, but they are getting bigger. They 
are more active. There is more global market competitiveness 
than there has ever been before.
    And if you were--you know, anybody engaged in international 
business knows how quick you have to move, how veracious you 
have to be, how disciplined you have to be in grabbing market 
share and knowing the markets and working with other partners. 
It is a different marketplace than it was in the 1960s, 1970s, 
when we were the dominant single economy.
    And so this kind of trade regime that we are talking about 
putting together under the TPP or the TTIP is far more critical 
to American jobs, to American growth, to America's influence, 
to America's ability to continue to play the important 
leadership role we have played in the world.
    And so, if we don't get this kind of an agreement written 
to the higher standards of international business behavior, it 
will go down. The standards will go down. The protections will 
go down. The ability of people to have legal remedy will be 
reduced. The ability of people to protect intellectual property 
or have rights by which workers are protected--all of these 
things would be diminished if we are not able to achieve these 
kinds of trade agreements.
    And TPA is critical to the ability to have those agreements 
because other countries will--their leaders will not make the 
difficult political decisions necessary to take one interest or 
another in their country and change the structure in favor of a 
larger set of rules because it costs them politically.
    If they know that what they are doing when they make that 
decision is going to be subject to a renegotiation with 
Congress rather than the passing of what has been negotiated, 
they won't make the agreement in the first place.
    So we actually hurt ourselves in achieving our larger 
interest of trade and growing our markets if we wind up trying 
to micromanage it through congressional day to day without the 
TPA. TPA is what actually empowers the negotiators to be able 
to close a deal and allow those leaders in other countries to 
make the tough decisions they need to make.
    So, in the end, 95 percent of the world's customers are in 
other countries, and we cannot grow our Nation, increase 
wealth, do better, if we are just thinking we can somehow only 
sell to ourselves. We have to sell in the rest of the world. It 
is better for us to be helping to lead the effort to reach 
agreement as to what the rules will be by which we sell and 
raise those standards rather than leave it to somebody else and 
see them lowered. That is why TPA is so critical.
    Chairman Royce. We appreciate the Secretary's time today, 
including today's lightening round. And we have a ton of issues 
to get through together. We thank you.
    And we stand adjourned.
    [Whereupon, at 1:13 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                       Material Submitted for the Record
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
